<html>
<title> - RECOVERING FROM HURRICANE KATRINA: RESPONDING TO THE IMMEDIATE NEEDS OF ITS VICTIMS</title>
<body><pre>[Senate Hearing 109-445]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-445

 
RECOVERING FROM HURRICANE KATRINA: RESPONDING TO THE IMMEDIATE NEEDS OF 
                              ITS VICTIMS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION




                               __________

                           SEPTEMBER 28, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
24-236                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   Thomas R. Eldridge, Senior Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
        Michael L. Alexander, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Pryor................................................    17
    Senator Carper...............................................    26
    Senator Akaka................................................    33
    Senator Levin................................................    35
    Senator Warner...............................................    38

                               WITNESSES
                     Wednesday, September 28, 2005

Hon. Robert A. Eckels, County Judge, Harris County, Texas........     6
Hon. Melvin L. Holden, Mayor-President, Baton Rouge, Louisiana...    10
Hon. Robert V. Massengill, Mayor, Brookhaven, Mississippi........    14
Hon. Dan Coody, Mayor, Fayetteville, Arkansas....................    17

                     Alphabetical List of Witnesses

Coody, Hon. Dan:
    Testimony....................................................    17
    Prepared statement...........................................   100
Eckels, Hon. Robert A.:
    Testimony....................................................     6
    Prepared statement with attachments..........................    49
Holden, Hon. Melvin L.:
    Testimony....................................................    10
    Prepared statement...........................................    84
Massengill, Hon. Robert V.:
    Testimony....................................................    14
    Prepared statement...........................................    95

                                Appendix

George Rupp, President, International Rescue Committee, prepared 
  statement......................................................   111


RECOVERING FROM HURRICANE KATRINA: RESPONDING TO THE IMMEDIATE NEEDS OF 
                              ITS VICTIMS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 28, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Coleman, Warner, 
Lieberman, Levin, Akaka, Carper, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Good morning. Today this Committee holds its second hearing 
on what is being done to meet the immediate needs of the people 
of the Gulf Coast whose lives have been devastated by Hurricane 
Katrina. This Committee is undertaking an in-depth 
investigation into the inadequate preparedness and response to 
the hurricane, but our immediate focus is on ensuring that 
bureaucratic roadblocks, inflexible policies, outdated laws, 
and wasteful practices do not impede the prompt and 
compassionate delivery of needed assistance.
    On September 16, I joined a group of Senators, including 
Senator Lieberman and Senator Warner from this Committee, on a 
tour of the stricken region. The scenes of destruction that we 
have all seen on television only hint at the reality. 
Tragically, our first look at the wreckage Katrina left in its 
wake coincided with the first look many people of the region 
got of their destroyed homes and communities some 2 weeks after 
the storm had hit. For many, a water-stained family photograph, 
a mud-caked Bible, or a cherished heirloom unearthed from the 
rubble is all that is left. For others, there is not even that.
    In Pass Christian, Mississippi, Mayor Malcolm Jones, walked 
with us through the rubble of his community. I did not see a 
single undamaged home. Reopening the schools and restoring 
water and sewer services are but a few of the massive 
challenges that must be met for Pass Christian to emerge from 
the rubble and again become the pretty community it once was.
    Today the Gulf Coast is at once a region of tears and a 
region of great determination. It is also a region that needs 
help and has encountered frustration in getting answers and 
assistance. Rebuilding homes, jobs, schools, utilities, and 
everything else that make a community are urgent priorities. 
But as the rebuilding for tomorrow proceeds, we must meet the 
immediate needs of today. Mayor Jones expressed to us his 
frustration in trying to get permission from FEMA to proceed 
with urgent infrastructure repairs. Senator Trent Lott has told 
me that FEMA has been far too slow in distributing basic 
supplies, even food.
    Throughout the country, and especially throughout the 
South, communities have shown great compassion in taking in 
hundreds of thousands of Americans who have been displaced. 
This compassion carries a great cost. Communities that have 
provided shelter, schools, and medical care to displaced 
families wonder if they will receive any financial relief 
anytime soon.
    Our witnesses today represent four of these generous 
communities. Harris County, Texas, which includes the City of 
Houston, had at one point some 27,000 evacuees in such 
facilities as the Astrodome, the Houston Arena, and the Expo 
Center. It is essential that these thousands of people be moved 
from such mass shelters to more suitable housing. This process 
is underway, but the pressure on local resources is great and 
made even greater by Hurricane Rita.
    The population of Baton Rouge has exploded by 50 percent 
since Katrina. It is now the largest city in Louisiana. The 
city continues to grow daily, and some of this growth may be 
permanent. The demands this unexpected growth has imposed on 
police, fire, and EMS personnel, on schools, hospitals, 
utilities, and every other aspect of community life are 
enormous.
    Just 130 miles from New Orleans, Brookhaven, Mississippi, 
suffered major damage from Katrina. It is now on the front 
lines of the recovery effort as a major relief center, 
including as the Red Cross staging area. Despite their own 
needs, the people of Brookhaven have opened their homes, their 
churches, their schools, and their stores to others in even 
greater need. Brookhaven is clearly a town of very special 
people.
    Arkansas has received more Katrina evacuees per capita than 
any other State, in excess of 75,000 at the peak, primarily in 
Fayetteville and the surrounding area. Today as many as 50,000 
remain, a great many in private homes, church camps, and even a 
vacated jail. These displaced families are being cared for by 
one of the poorest States in the Nation. Schools are stressed 
beyond capacity, yet they are committed to educating these 
thousands of new students.
    The communities represented by our panel today have been 
shining examples of generosity and caring. As I said at our 
first hearing, Hurricane Katrina was a natural disaster 
followed by a manmade debacle. It is essential that we first 
concentrate on overcoming that initial failure and providing 
effective, efficient, and speedy relief for the victims of 
Katrina. Once that is done, we must learn what went wrong, why 
it went wrong, and what we can do to fix the problems.
    Meeting the needs of the victims is our first priority, but 
we are also concerned about protecting against waste, fraud, 
and abuse. We need to make sure that resources are not 
squandered when the needs are so great. This concern about 
wasteful spending is not merely hypothetical. Last week, for 
example, dozens of truckloads of ice ordered by the Federal 
Government for Katrina victims at great cost arrived in the 
Gulf Coast region, only to be diverted more than 1,600 miles 
away, where they ended up, in all places, in my home State of 
Maine, a State that is not short of ice.
    The American taxpayers, and especially the Katrina victims, 
cannot endure this kind of wasteful spending. With billions of 
dollars being appropriated for recovery efforts, we must ensure 
that the money is spent wisely. Creating a chief financial 
officer and establishing a special Inspector General are 
essential safeguards that cannot wait.
    Before calling on our witnesses, I want to provide a brief 
update on our investigation. Today we will send the first 
document requests to Federal and State entities. They are 
extensive. We are also working closely with the Government 
Accountability Office and the Inspectors General. Next week our 
investigators will be on site in Louisiana, and also next week 
the Acting FEMA Director, David Paulison, will testify before 
our Committee.
    I very much appreciate our witnesses joining us today, and 
it is now my pleasure to call upon the Committee's Ranking 
Member, Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Madam Chairman. Thanks to the 
witnesses for being here. It strikes me that I no longer have 
to use the overworn metaphor, ``carrying coal to Newcastle.'' 
From now on I can say it is like ``carrying ice to Maine.''
    Chairman Collins. That is right.
    Senator Lieberman. I thank you for your leadership in 
convening this second hearing of the Committee's efforts to 
improve the government's preparation and response to natural 
disasters.
    In the time since our last hearing, as we well know, parts 
of the Gulf Coast and Texas were hit and hurt by Hurricane 
Rita, although Rita, fortunately, was less powerful than 
Katrina was. It does appear that State, Federal, and local 
governments performed better the second time around. 
Nonetheless, we clearly still have much work to do to fully 
restore the public's confidence in the ability of their 
government to protect them in time of disaster.
    Texas officials appear to have moved quickly to start 
evacuating before Hurricane Rita hit and then worked to get 
many people without means of transportation out of the danger 
zone. Hospitals were apparently better prepared for power 
outages and flooding, and New Orleans wisely halted the flow of 
people back into the city until after the danger from Rita had 
passed.
    The Federal Government also appears to have been better 
prepared and responded more quickly than to Katrina. National 
Guard troops were prepositioned early. The Defense Department 
was on alert to provide humanitarian aid, medical care, and 
logistical support, to distribute food and water. 
Communications teams were deployed with satellite capabilities, 
clearly missing in those desperate first days after Katrina 
struck. This preparation paid off during and after the storm, 
but unfortunately there were still problems and lessons that we 
all have to learn from Rita for the future. And clearly one of 
them was the challenges of evacuating a major city in a very 
short period of time--nonetheless, a period of time in which 
there was a warning, as compared to a circumstance, God forbid, 
where there was an unexpected terrorist attack.
    As we all know, gasoline supplies ran out, stranding 
motorists on roadways and creating unnavigable traffic jams. 
Airport evacuations were handicapped by the sheer volume of 
travelers and because some airport employees just couldn't get 
to work. Had this storm been larger and more powerful, had it 
hit Houston and Galveston head on, I fear that some of the 
suffering that we saw with Katrina would have been repeated.
    While we were better prepared for Rita than for Katrina, I 
say, in sum, that our emergency preparedness and response 
system is not what it has to be. We have a lot of work to do, 
and in this Committee we are going to try our best to do it 
together. For our Committee, that work, as Chairman Collins has 
just indicated, has now moved into higher gear with the 
issuance of document and information requests to Federal and 
State emergency management agencies, with further document 
requests and information requests to follow to heads of 
government at all levels of government, and with the dispatch 
of Committee investigators first to Louisiana.
    We follow the work of our colleagues in the House and the 
testimony of Mr. Brown yesterday. There is something to learn 
from it. It seemed to me that Mr. Brown blamed the governor. I 
expect today the governor will blame Mr. Brown. And what is 
necessary is the kind of thorough and very comprehensive 
building of a factual record, which we on this Committee intend 
to do, and then go to a hearing stage. You have to know what 
happened before we can conclude how to fix it, and I know under 
your leadership, Madam Chairman, that is exactly what we intend 
to do.
    As you indicated, today our attention turns from the 
response and preparation for Katrina to the efforts at relief 
and recovery. And this is also a very important responsibility 
we have as an oversight Committee, particularly the Committee 
that has jurisdiction over the Department of Homeland Security 
and FEMA.
    There are several Federal agencies that have a role to play 
in the Gulf Coast recovery, but, clearly, the one that is most 
directly involved is FEMA. Our Committee's staff investigations 
have, unfortunately, uncovered reports that indicate that the 
relief and recovery effort has not been adequately or 
effectively carried out and coordinated thus far. In cases that 
are too frequent, promised assistance has not arrived or 
arrived at the wrong place, or as the Chairman just indicated 
in the ice story, frustrated volunteers or, in fact, contract 
employees have tried to help but got caught up in webs of red 
tape and bureaucracy, and help did not arrive.
    Weeks now after Katrina, there are many communities 
affected that we gather have still not been contacted by FEMA 
representatives. Inspectors have not yet assessed the damage to 
a large number of homes, and thousands of evacuees have been 
unable to get through to the FEMA help lines. Our staff had, 
for instance, conversations with officials from East Biloxi, 
Mississippi, where we found that residents are trying to 
survive in houses that were flooded, full of mold, mildew, and 
bacteria, without power or telephones. They have no jobs, no 
means of income, and no way to call for help.
    These are communities of mostly poor, minority residents, 
and it is very troubling that they have still not received the 
help that we believe they deserve and need at this time.
    The real problem continues to be--and I look forward to 
hearing from our witnesses on this--housing for the evacuees. 
And there is no easy answer here. I was troubled when I heard 
of the enormous sums of money that FEMA was planning to spend 
on temporary dwellings, trailers, perhaps RVs. I also am 
troubled now in a different way to find how little has been 
done to provide for temporary housing for the evacuees, but I 
welcome the input of the local officials here today on this and 
other matters before us.
    We had originally hoped to have the Acting Director of FEMA 
here today. He is in the region so he could not be here, but I 
am glad that he has said that he will be here next week to 
respond to some of the concerns and complaints that our staff 
has found from local officials and others in the affected 
region, and perhaps from some of the reports that the 
distinguished panel before us will bring to us today.
    I thank you all very much for taking the time to be here, 
and I very much look forward to your testimony. Thank you.
    Chairman Collins. Thank you, Senator, and I welcome all of 
the Committee Members who have joined us here today.
    We are now going to turn to our panel. Judge Robert Eckels 
is the presiding officer of the Harris County Commissioners 
Court, the governing body for Harris County, Texas.
    For those of us who are less familiar with the Texas 
system, from what I understand, Judge Eckels' position is the 
equivalent of what in Maine we would call the Chairman of the 
County Commissioners, just to give some context here.
    With a population of 3.6 million in 34 municipalities, 
including the City of Houston, Harris County is the third most 
populous county in the United States.
    Our second witness will be Mayor Melvin ``Kip'' Holden. He 
is the mayor of the City of Baton Rouge and the president of 
the East Baton Rouge Parish, which includes the city.
    Our third witness is Robert Massengill. He is a native and 
the mayor of Brookhaven, Mississippi. Brookhaven, located in 
the northern evacuation route from New Orleans, has received, 
sheltered, and fed thousands of evacuees from Louisiana.
    And our final witness this morning will be Mayor Dan Coody 
of Fayetteville, Arkansas. The Arkansas area also has taken in 
thousands of people displaced by the hurricane, and I would 
note that the mayor and his wife themselves have taken in a 
couple from New Orleans.
    I welcome you all to the hearing today and thank you for 
joining us, and we are going to begin with you, Judge Eckels.

  TESTIMONY OF HON. ROBERT A. ECKELS,\1\ COUNTY JUDGE, HARRIS 
                         COUNTY, TEXAS

    Judge Eckels. Thank you, Madam Chairman. I appreciate your 
clarification of my role in what the judge does. People often 
ask, ``Why is that judge here talking about these things?'' We 
do have judicial responsibilities, but my primary role is that 
of the Chairman of the supervisors, or county executives in 
some other parts of the country. Perhaps it is our size, too, 
as Harris County is 3.6 million people, somewhat larger than 23 
States in the Nation. That enabled us to absorb more folks than 
some other communities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Judge Eckels with attachments appears 
in the Appendix on page 49.
---------------------------------------------------------------------------
    As judge, I am charged by statute with the responsibility 
for emergency management and planning operations for Harris 
County. That comes through the President to the governor of the 
county judge and also the mayor. Most of the departments in our 
community have emergency management functions in addition to 
their normal duties, and they play key roles in our emergency 
operations strategy. All of these departments work together to 
coordinate services and prepare for an emergency or disaster.
    I do want to thank this Committee for asking me to testify 
on the role that Harris County played in providing shelter and 
comfort to the Hurricane Katrina victims in what became at that 
time the largest mass evacuation in U.S. history. I would say 
that it almost became a mass exodus, and I will get into some 
of the details of how that worked. More than 373,000 evacuees 
came to Texas with more than 150,000 in the Houston area alone, 
largely in Harris County. Our response was an unprecedented 
coalition of the Harris County Government, the City of Houston, 
the State of Texas, the Federal Government, the private sector, 
nonprofit organizations, and citizen volunteers.
    The mission of the coalition was to provide temporary 
shelter, social services, and relocation services for the 
citizens displaced by Katrina. In less than a day, a city was 
created that, at its peak, offered 27,000 people shelter, 
health care, mental health services, housing assistance, travel 
vouchers, employment, and much more. We had our zip code. But 
even with that zip code, people could not find each other as 
the shelters were not linked around the Nation. There was no 
single national database for people to find friends and family 
who had been separated in the disaster.
    As we seek to make our communities more prepared for any 
kind of disaster and resilient to those disasters, it is clear 
from our experiences that all government relations functions 
are interrelated. A healthy and robust community is better 
prepared for emergencies, and I believe that local governments 
that work well together and work well with State and Federal 
Governments in day-to-day operations will be much better 
prepared for types of stress.
    A number of issues stand out as we look at Katrina and, 
more recently, Hurricane Rita that hit the Texas and Louisiana 
coasts just this past weekend. I will cover a few of those in 
this oral testimony, but I go into much more detail in the 
written testimony I previously submitted that was prepared 
largely before Rita came in east of Houston.
    First I will tell you that Harris County and the Houston 
area are a very caring community. We welcomed our neighbors in 
need where they had nowhere else to turn, and Harris County, 
through its Reliant Astrodome, provided the shelter, and later 
expansions into those related venues absorbed the sudden shock 
of these evacuees, as they came in from Louisiana and provided 
a couple of days for the rest of the country to start putting 
in shelters as well.
    We had a plan that we executed. It was not a plan for the 
Dome. People said, ``How did you plan to do the Astrodome?'' It 
was just a plan of action. We could have set that up in any 
facility. It was just a plan of action, and we learned from it 
as we went along. But the structure of that plan was sound and 
our people knew their roles and responsibilities.
    We dealt with the problems and forces beyond our control 
and kept a giving spirit. I believe that the Katrina victims 
were a blessing to our city and that today our community is 
stronger for our service to our neighbors. That said, there are 
many lessons to be learned from our experiences.
    First, in health care. At more than $1 billion, Harris 
County's single largest budget item is health care. The Houston 
region's health care surge capacity is today at its absolute 
limits. Louisiana and, to a lesser extent, Alabama and 
Mississippi, through their Katrina evacuees, and now Beaumont, 
Port Arthur, and East Texas through the Rita evacuees, sent 
their most medically dependent to Houston. The ability to 
respond to a disaster depends upon a robust system, and America 
does not have a robust health care system. The reasons are many 
and subject to another hearing, but the Harris County Hospital 
District and the health care providers of our community were 
stressed before these disasters with high numbers of uninsured 
patients and uncompensated care. Short-term needs are addressed 
in my written comments, but in the long term, Katrina evacuees 
will continue to stress our over-burdened system. A sustainable 
system to deal with the long-term needs in future disasters 
will require at least a state-wide initiative--probably 
logically a state-wide initiative, but Federal programs that 
support long-term solutions. Our hospital district spent more 
than $4.5 million at the Reliant Arena Astrodome shelter 
system. We treated 15,000 patients and provided thousands of 
inoculations and prescriptions. We operated a full-scale 
hospital with orthopedic, mental health, obstetric, pediatric, 
and internal medicine. The full extent of our operations are 
discussed again in the written testimony, but it is an 
incredible story of dedicated professional staff, volunteers 
from across the community, from around the Nation and from 
around the world.
    Critical infrastructure needs in our community--that 
includes locally critical infrastructures such as water, power, 
transportation, and communications, the things you normally 
think of, but also national strategic infrastructure, such as 
in Houston our refining and petrochemical complex, which 
represents as much as 15 percent of the Nation's capacity. 
These interests can coincide with each other.
    After Hurricane Rita passed through, Baytown lost power to 
its water treatment and distribution system. Its primary power 
supply was struck by lightning, and its back-up generator 
caught fire. That problem was well on its way to being solved, 
but they still had only 4 more days of water in the system. It 
turned out that the pumps for the canal that carried 12 million 
gallons of water each day for Baytown had also lost their power 
supply in the hurricane. Upon further inquiry, I learned that 
the canal supplied 80 million gallons a day to the Houston ship 
channel refining industries for industrial processing. Without 
the processed water, the refineries cannot produce gasoline for 
Maine, Connecticut, Michigan, or California. That canal also 
supplies drinking water to Houston and other cities in the 
area.
    The Nation was faced with the possibility of severe strain 
on refined petroleum production, and over 600,000 people were 
faced with the loss of their primary water supply because of a 
power outage at a single pumping station. Though the problem 
does appear to be resolved, and I want to tell you I 
particularly thank the Departments of Energy, Homeland 
Security, and the Corps of Engineers, who are all engaged in 
that, but it reinforces the need to identify potential single 
points of failure and build redundancy into the systems. It 
also shows why a Senator from the East Coast should care about 
Houston's request for security and resilience in our critical 
infrastructure needs. And I am sure you have some examples in 
your part of the country, Madam Chairman.
    Increased funding and relaxed regulations for flood control 
projects. Again, in my written comments there is extensive talk 
about flood control issues and lessons from Tropical Storm 
Allison in 2001. It is important that Congress continue to 
provide more funding to operate and maintain those flood 
control systems as well as to deal with the regulatory scheme 
that comes in there. Often with the Corps of Engineers and our 
Federal partners, the process delays action, the methods of 
allocating funds and the cost/benefit analysis should take in, 
as well, not just pure dollar values, which tend to favor more 
affluent areas, but also the impact and the agony caused to 
people that are involved in floods.
    The gridlock, as Senator Lieberman mentioned as we were 
talking at the beginning of this, that was caused in the 
evacuation of Houston was totally unacceptable. My wife, Jet, 
and our daughter, Kirby, were caught in a traffic jam that was 
20 miles long because a subcontractor had not received the word 
that there was no construction on the road that day. The next 
day, the contractor was gone, but the traffic jam was much 
worse, largely because of little things well beyond our 
control, like a traffic light in a small town a hundred miles 
outside of the city.
    Yesterday, our medical examiner released a list of 31 
people who died during the evacuation. Now, most of these folks 
had underlying medical conditions, and it is not clear that 
they died as a result of the evacuation, but they were the very 
people that needed to be evacuated the most, the very people 
that we see stories of in New Orleans and other areas where 
they stay behind in a nursing home, and without power and 
without food and water, they wound up in much worse shape than 
had they been on the road.
    Our transportation infrastructure, again, must be robust. 
In Texas, evacuations occur over a long distance. Dallas is 220 
miles away from Houston; San Antonio and Austin likewise. We do 
need support for the Interstate 69 corridor and for the I-35 
and I-45 corridors running north out of our coastal areas. They 
are part of Governor Rick Perry's Trans-Texas Corridor plan to 
finance new highway construction and rail capacity. We also 
need help with the Texas High-Speed Rail Coalition that I chair 
that links the East Coast through Atlanta and New Orleans with 
Beaumont, Houston, Dallas, Austin, and San Antonio. This 
project takes on a new significant importance as we look at our 
experiences in Katrina and later Rita.
    The same problems occurred in Louisiana. Evacuees coming 
into the Astrodome took 17 hours or more. After spending days 
on the roof of a house or in the Superdome in New Orleans, 
those folks arrived in bad shape. They were standing up. They 
had had no water. They were dehydrated. They had serious 
medical problems, largely as a result of that evacuation.
    To close, and touch a little bit on the Citizens Corps, 
President Bush's Freedom Corps efforts calling on citizens to 
spend 4,000 hours in service to others. Through that program, 
we launched one in Harris County in 2002. Our CERT team had 
folks from around the country, Community Emergency Response 
Team. We had CERT volunteers from Mr. Voinovich's State that 
because we were on a national plan, could drop directly into 
our local response. There are tens of thousands of volunteers--
in the end we had 60,000 volunteers through the relief efforts.
    There are a few areas where the rules actually discourage 
us from doing our job. One of those rules is that FEMA does not 
reimburse us for our everyday expenses. The logic is that the 
normal operating expenses of the county for regular time pay 
for police officers, fire fighters, EMS technicians, and other 
first responders who normally work within our community should 
not be reimbursed because they would be providing those 
services whether there was a disaster or not. The services we 
are providing today are not for people within our community. 
They are being provided for people outside the region, and so 
it's more or less like being a contractor for the national 
system. So these first responders are being taken away from the 
people in our community who would otherwise be served. It is a 
strong disincentive for communities to accept evacuees, that we 
will not be reimbursed for the regular time of our employees 
that are out there doing their jobs.
    The second key area is a lack of reimbursement for revenue 
lost at places like our convention center. Harris County opened 
the Reliant Center, which is a convention center complex. The 
City of Houston opened the George R. Brown Convention Center. 
San Antonio and other cities did not open their convention 
centers because they could not afford to. They found other 
locations, but there are many places, large convention center-
type facilities that could very well be opened as a shelter for 
evacuees, but again there is no reason for a municipality to do 
so if it is not their residents who are being served, and if it 
is a financial loss to their local taxpayers.
    Finally, FEMA has been a great partner. Interestingly, I 
have watched, as people around the country have had problems. 
Tom Costello and the Houston FEMA operation understands what it 
takes to be helpful and responsive. Perhaps it is our long-term 
relationship with them and our experiences in Tropical Storm 
Allison that have provided guidance and assistance to let us 
transport and shelter folks through local contracting. They 
have been very flexible in hotel reimbursement and apartments 
for families that have been disclosed and worked with our 
Harris County and Houston Housing Departments. While both Mayor 
Bill White and I would like to see direct funding of local 
governments that experience these type of events, Governor 
Perry and the Texas Emergency Management Office have been 
helpful and understand how to make the system work, and we 
already have obligated funds to reimburse us for those costs.
    It is all part of the National Response Plan to build 
capacity for State and local levels in partnership with the 
Federal Government, and I can only re-emphasize the importance 
of that national plan. I do see reports of an effort to have a 
Federal plan of first response, and there are places where that 
would work where locals are overwhelmed. I could have used that 
in our evacuation when I was trying to get gasoline to folks on 
the road. I needed someone to help direct traffic 100 miles 
away from the city where I could not project our local forces.
    But any Federal response play needs to be in connection 
with that National Response Plan that continues to build 
capacity for local officials and local communities. The first 
responder on the street may not even be the police or fire, it 
is the guy who is there when the incident occurs. The Citizens 
Corps, followed by the local first responders, followed then by 
the national officials, can make a real difference in our 
community.
    Thanks again for giving me the opportunity to be here 
today. We had a great story in Harris County, as I know you 
have here, and I am sure you will see stories of heroism and 
sacrifice as this story unfolds of all of the folks throughout 
Louisiana, Mississippi, and Alabama in Katrina.
    Thank you.
    Chairman Collins. Thank you, Judge Eckels. Mayor Holden, 
you may begin.

 TESTIMONY OF HON. MELVIN L. HOLDEN,\1\ MAYOR-PRESIDENT, BATON 
                        ROUGE, LOUISIANA

    Mr. Holden. Thank you, Madam Chairman, Senator Lieberman, 
and Members of this Committee. My name is Melvin L. ``Kip'' 
Holden. I serve as mayor-president of the City of Baton Rouge 
and the parish of East Baton Rouge, Louisiana.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Holden appears in the Appendix on 
page 84.
---------------------------------------------------------------------------
    It has been estimated that approximately 45 percent of the 
survivors of the areas affected by Hurricane Katrina relocated 
to the Greater Baton Rouge Metropolitan Area.
    With Hurricane Rita devastating parts of South Louisiana 
and causing additional flooding to the City of New Orleans, our 
emergency response systems have been strained yet again.
    Our citizens have opened their hearts and homes to those 
who suffered great loss, and we are working with FEMA to 
expedite temporary housing for displaced families who are 
living in shelters, churches, and homes throughout the city.
    The City of Baton Rouge dodged the bullet of major 
devastation, the most serious being over 600 downed trees. This 
exceeded our losses by Hurricane Andrew and damaged homes and 
power lines, making our streets impassable.
    We remain severely impacted by Hurricanes Katrina and Rita.
    We have sharp increases in enrollment of students into the 
public and private child care centers, Head Start, schools, 
colleges, and universities throughout Baton Rouge. Our 
education officials have worked around the clock to get 
children back in school as quickly as possible.
    Our city-parish is also experiencing increases in requests 
for economic assistance through our Division of Human 
Development and Services. This office is working to assist 
families, process emergency unemployment claims, and recruit 
workers for FEMA to assist with the needs assessments of 
hurricane survivors.
    One of the most obvious impacts of the displacement of 
people from New Orleans and South Louisiana to Baton Rouge has 
been our increase in traffic. We estimate more than 250,000 
additional people in Baton Rouge based on formulas for traffic 
counts that have shown a 35- to 40-percent increase in traffic 
on our streets, causing frequent gridlock on surface streets. 
As a matter of fact, in 2 weeks we experienced a 25-year 
projection already in the amount of traffic that we have.
    Additionally, with the interstate system used as a major 
evacuation route, our parish is seriously impacted by that 
traffic as well.
    Despite the increased population, many small businesses 
report a negative impact on sales as a result of traffic, 
interruption of supplies, and loss of customers from the most 
seriously impacted areas.
    Our airport, which usually serves 700,000 passengers 
annually, expects to see an increase of upward to 3 million 
people. For the past few weeks, with constant relief and 
recovery flights in and out, it has remained the second busiest 
airport behind JFK International. And for those of you who have 
never flown into Baton Rouge, we only have ten gates, so we are 
considerably smaller.
    The public service providers within our community are 
overloaded, and with your help and support we can address some 
of our most critical needs: additional police officers, 
firefighters, emergency medical service providers, and public 
works employees as a start.
    Our police have been working double shifts, leaving 
vulnerable areas that require regular patrols. The strain of 
accommodating the rapid influx of people into a large shelter 
in our governmental complex at one point led to a government 
shutdown in order to assure the safety and accommodation of 
both evacuees and city-parish employees. Emergency 
circumstances such as this indicate a necessity to streamline 
and expedite National Guard for law enforcement patrols and 
crime prevention.
    Our city-parish infrastructure was already in serious need 
of improvements, and I am currently seeking voter approval of a 
proposition to extend a half-cent sales tax, over one-half 
billion dollars, to allow us to bond revenue and jump-start 
projects immediately.
    We have welcomed the local governments of Jefferson, St. 
Bernard, Orleans, and Plaquemines Parishes to operate in our 
facilities, holding council meetings as well in our council 
chambers to assist them in re-establishing local government 
authority quickly.
    Additionally, we are providing logistical support to the 
many Federal agencies, like FEMA, the Department of Homeland 
Security, and the Transportation Safety Administration, staged 
in our community.
    I am especially proud and grateful to our first responders 
of East Baton Rouge Parish--our police officers, firefighters, 
EMS, and the staff at our Office of Homeland Security and 
Emergency Preparedness.
    The professionalism and compassion shown by the men and 
women who responded to two hurricanes on behalf of our 
community was exemplary.
    Our parish has many heroes, among them an urban search and 
rescue team that went into New Orleans the day following 
Hurricane Katrina and rescued over 1,000 trapped victims. 
Working by boat, they were in areas where no other rescue teams 
were working at the time.
    For many people, we are a shelter from the storm. For some, 
we represent a new beginning. With a rapidly changing 
population and serious infrastructure needs to meet pre-Katrina 
growth, our administration is now seeking relief to accommodate 
our increased population.
    We are also beginning to study our records of emergency 
response to determine areas we need to improve. There is no 
question that one of the major factors frustrating and delaying 
those who were responding to Hurricane Katrina in Baton Rouge 
was difficulty with communications.
    Regional, State, interstate, and Federal communications 
must be improved, and there must be clear lines of authority as 
to who is in charge of various operations. These individuals 
must be accessible to local officials.
    At every step of our response efforts, a breakdown in 
communications hindered our abilities to respond more 
effectively and efficiently.
    Our parish, with a need to communicate with multiple first 
responders, labors under incompatible communications systems 
and insufficient technology and software to provide seamless 
information flow in times of emergency.
    Our communications systems broke down when cell phones 
became inoperable due to network congestion and downed towers. 
Satellite phones are too expensive and also failed during 
Katrina. Software programs and Web-based programs should be 
made available to local agencies and hospitals, including such 
software which tracks beds and hospital resources.
    With standardization, these programs can be implemented 
locally and statewide. In disasters such as Katrina and Rita, 
these programs could be utilized for tracking patients and 
coordinating triage from ground zero to the staging area.
    Equally frustrating were the communications breakdowns due 
to burdensome red tape.
    Because of our location and relative efficiency, East Baton 
Rouge Parish in many cases served as a State agency for 
inquiries, guidance, and resources for other jurisdictions 
within Louisiana.
    The National Incident Management System was established by 
the Federal Government as the standard line of communication. A 
lack of knowledge and understanding by many agencies paralyzed 
the efforts to facilitate order and efficiency in response 
efforts. Further requirements for paperwork and form 
completions hindered immediate action and deployment of people 
and materials to assist in rescue and recovery efforts.
    Our parish also lacked sufficient communications with 
Federal authorities, and we were unsuccessful in establishing 
early communications with FEMA representatives despite their 
actions impacting our local operations.
    East Baton Rouge Parish created its own internal systems to 
coordinate sheltering, medical care, triage, mental health 
services, mortuary, family assistance information, and help for 
evacuees with addictive disorders and other needs to quickly 
fill the void created by the constant influx of evacuees from 
South Louisiana.
    As of this week, we still do not have a designated FEMA 
contact for individual assistance for those seeking help.
    We have an immediate need for a FEMA coordinator to be 
located within our Emergency Operations Center to expedite 
available resources and alleviate some of the ongoing issues 
our city-parish is currently facing.
    Poor communications also affected our ability to deliver 
medical treatment to Hurricane Katrina victims in Baton Rouge. 
While the volunteer medical response to Katrina's victims was 
unprecedented in Red Cross history, they were severely hindered 
by inadequate communications, limited resources, and red tape.
    Medical volunteers from all over the world began arriving 
in our city because of an inability to get through to anyone to 
determine our needs and a lack of a system for deploying 
medical volunteers and much needed supplies.
    Prepositioned Federal assets critical to the operations of 
our area hospitals were never received. Resources from the 
Strategic National Stockpile, despite requests, were never 
locally deployed and were derailed due to paperwork issues. 
Area hospitals are faced with serious reimbursement needs for 
their depleted resources.
    I know I am out of time, so I will just skip a little bit 
and just say we need to understand that the financial drain on 
all of our resources is enormous. Many of the patients who 
received treatment are uninsured or underinsured, and it will 
be costly for the six area hospitals that are already 
overwhelmed. Displaced persons in shelters need access to 
medical care, counseling, and privacy. Our superintendent of 
schools shared my concern that children who have seen things no 
child should witness desperately need a quiet place to heal.
    Decisions based on shelters were made by the American Red 
Cross based on numbers and not the conditions of the shelter. 
The River Center in Baton Rouge, operated by the city, has a 
major roof leak that curtailed space available for evacuees.
    I am working closely with FEMA and HUD to provide temporary 
housing arrangements for families to at least get them some 
privacy, a place to reunite families, a quiet place for 
children to study.
    We seriously need to focus on the creation of satellite 
clinics in areas that will now serve as housing for these 
evacuated families and areas where we anticipate growth.
    The quickest route to privacy for these families may not be 
permanent housing, but it will be private. It will provide the 
privacy they miss, the privacy to protect dignity, the privacy 
to begin having those quiet moments families need in order to 
heal from a traumatic event.
    These living arrangements are not a solution. A travel 
trailer does not solve anyone's housing needs, but at least 
they allow us to begin moving toward a better environment for 
restoring families. Short term, we should also look at parallel 
tracks for housing, including rehabilitation of existing 
housing stock, putting adjudicated property back into commerce, 
mixed-use development, restoring rundown apartment complexes, 
and prefab housing.
    To those who have relocated to Baton Rouge from hurricane 
devastation, our message has been this: You are our family now. 
Our hearts go out to you, our homes are open to you, our 
businesses will serve you, our city will care for you.
    We are Baton Rouge. And this is the way we respond to 
neighbors in need.
    I have come to ask you for your help. The devastation of 
Hurricane Katrina and Hurricane Rita was too much for one 
community, too much for one parish, too much for one State.
    America always responds when her people are hurting and 
suffering. Senators, the good people of Louisiana, Texas, 
Mississippi, and Alabama are hurting. We need you.
    God bless you.
    Chairman Collins. Thank you, Mayor Holden. Mayor 
Massengill.

 TESTIMONY OF HON. ROBERT V. MASSENGILL,\1\ MAYOR, BROOKHAVEN, 
                          MISSISSIPPI

    Mr. Massengill. Madam Chairman, ladies and gentlemen, let 
me give you a brief background about our community and how we 
were affected.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Massengill appears in the 
Appendix on page 95.
---------------------------------------------------------------------------
    As was mentioned earlier, we are 130 miles north of New 
Orleans. We are a small community of 13,000. We are located on 
Interstate 55. Prior to Katrina, we had only experienced 
minimal damages from hurricanes in the past, such as Camille in 
1969. We met prior to the hurricane with city and county 
officials and with the civil defense director so that we were 
somewhat prepared for the events, and by Sunday afternoon, 
evacuees had begun arriving in our community. All motels were 
immediately filled, and the churches, which served as shelters, 
were beginning to be filled.
    Bear in mind that we are town of 13,000, and yet we had 
1,600 evacuees in six shelters. We had another 1,200 to 1,500 
who stayed in the motels and stayed with family and friends. So 
we had a 20- to 25-percent increase in our population in just a 
few short days.
    But all the evacuees were signed in by Red Cross personnel 
at the various shelters and received some--and I emphasize 
``some''--personal care and assistance. But all of the meals 
that have been prepared for these individuals have been 
prepared by the churches in our community. On some occasions, 
the restaurants have been helpful in preparing the meals, but 
the churches have been the ones that have fed the evacuees and 
have housed the evacuees. They have made them feel welcome.
    The Brookhaven Recreation Department building was used for 
shelter for the power company people because on Monday, August 
29, the community received winds of in excess of 85 miles an 
hour and sustained winds of greater than 50 miles an hour for 
several hours. And so power was lost throughout the community. 
Numerous trees fell throughout the community, and I would say 
somewhere between 750 and 1,000 trees. So every street was 
closed.
    Approximately 25 homes were hit, with at least half of 
those receiving considerable damage. Six or eight were totally 
destroyed.
    No lives were lost, nor was there any serious injury due to 
the hurricane. So we are indeed thankful for that.
    We were unable to obtain much outside information with no 
power, so we did not know the severity of what was going on 
around us. But we knew immediately that we needed to begin 
doing things, and so the city and county officials met with 
civil defense, and we knew first of all we had to restore 
power. The energy people and I met, and we prioritized our top 
four needs. First was a hospital. Second were the streets on 
which the major retail stores are located and those streets on 
which the shelters are located. The third was the city's water 
wells because we only had two generators that worked. 
Nevertheless, we did prioritize. We began getting power back to 
the people on Tuesday and Wednesday.
    We knew having water for the individuals was key, and I 
learned a valuable lesson. Don't go on the radio when you can 
and say conserve water. That means everybody goes home and 
fills their bathtub. [Laughter.]
    Don't do that one. I did learn that.
    But we did not lose our water, nor did anyone have to boil 
water. We knew that safety was a key. We never had to impose a 
curfew, and our chief of police was certainly in control of 
that.
    We knew that safe travel was important, so Monday evening, 
the day of the hurricane, we had people out--when it became 
safe, we had people out to begin cutting trees. We opened up 
the streets so that by the weekend people were able to travel 
all through the community.
    Garbage collection was another major problem, so we 
arranged to have Waste Management trucks in central locations 
for people to bring their garbage, which was excessive and 
considerable due to the fact they had lost their freezers and 
coolers. And then by the following week, they began making 
their regular routes.
    We went on the radio and we went to the newspaper to keep 
people informed because the rumors were rampant. By the third 
week, things were basically back to normal.
    Let me mention several other things that I think you need 
to know. Let's get to the evacuees for a bit. The evacuees, 
many of whom have left our shelters, some to return home, while 
others have found local residences, either apartments or mobile 
homes or something to live in locally. Some have moved to 
family in other parts of the country, but at the present time, 
we have approximately 220 evacuees still in our community in 
these shelters. We have consolidated into four shelters at this 
time. These shelters had never housed anyone for more than 4 
days at a time, and they are now into their fifth week.
    I talked to the individuals in the shelters. I went to each 
shelter and talked to individuals. There are 71 family units 
still in our community; 35 of those could move back to Slidell 
or to their home if they had a trailer or a camper in which to 
stay. They want to get back into their communities so that they 
can begin working on their house. That is the main and really 
the primary concern that they have. They want to be able to get 
back home, and in Slidell, they can do so, but their homes have 
been flooded with 6 feet of water so that at this point they 
really cannot go back into their home. They need a place in 
which to stay while they repair their home.
    The other thing that they are concerned about primarily is 
employment. They do not know where to go employment-wise. For 
many of them, their company has been wiped out. They do not 
know when that company will open or if it will open. So the two 
primary needs they have--they have had their basic needs taken 
care of. They have a roof over their heads. They have meals, 
three good meals a day. I know at our church, for instance, we 
fed over 700 meals a day to people. But they need a place to 
go. They need to know something about employment. Where can 
they go for employment?
    Let me move to another area that I want to touch on for 
just a minute. We know a lot of attention needs to be given to 
how the efforts can best be coordinated for a future event. 
There will be another event. It may not be a hurricane. It may 
be a terrorist attack. But there will be other events, and we 
need to have coordinated efforts, and we need to have checks 
and balances to ensure that the funds and goods that are being 
distributed are done on a most-needed basis.
    Obviously, I have had a firsthand experience with the 
hurricane, and I am thankful for the caring people of our 
community--a community that was affected somewhat--that have 
opened their churches, have opened their homes, have opened 
their pocketbooks, and especially have opened their hearts, 
because these people that still needed help themselves, these 
people that had no power themselves, went out of their way to 
make our visitors feel at home and to take care of them.
    Our community has responded well, but there are several 
things that we must recognize as the keys to seeing that this 
type of disaster can be dealt with in the future. The first of 
those is proper planning ahead of time. The second of those is 
open lines of communication. And the third of those is 
leadership. And my suggestion is that we have task forces 
formed in each of the 12 Federal Reserve districts or in some 
other division of the country so that we have experts in the 
area of food distribution, communications, banking--because 
these people lost their ability to do banking--utility 
companies, medical and health care, transportation, fuel 
distribution, and perhaps others, but task forces in each of 
these areas planning for events. It is so much better to plan 
and not need the plan than to never plan at all.
    Thank you.
    Chairman Collins. Thank you, Mayor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Madam Chairman, may I have a moment here?
    Chairman Collins. Absolutely, Senator Pryor. I should 
acknowledge that you were the one who recommended the mayor to 
the Committee, and we appreciate that.
    Senator Pryor. Well, thank you, and Madam Chairman, let me 
thank you and Senator Lieberman for your leadership after 
Katrina and leadership of this Committee generally. Once again, 
the Committee is demonstrating how it can function in a very 
nonpartisan way, and I think that is what we need after 
Katrina.
    A couple of weeks ago, when I was home in Arkansas, I did 
what we called a ``find and fix tour'' of the State after all 
the evacuees had arrived in Arkansas, and estimates were we had 
around 75,000. I went around and talked to various people about 
what happened after Katrina and how we could do things better 
next time.
    One of the real all-stars--even though I saw churches, 
community leaders, businesses, nonprofits, State Government, 
the National Guard, everybody working together and really doing 
some great things--one of the real all-stars was Mayor Dan 
Coody of Fayetteville. Fayetteville has about 58,000 people. 
Its claim to fame is it is the home of the Razorbacks. It is 
where the University of Arkansas is. The first time I ever 
heard of Mayor Coody was several years ago when he ran for 
mayor, and I was over at my aunt and uncle's house, and I 
noticed that my uncle had put his ``Dan Coody for Mayor'' 
bumper sticker on his canoe. I knew if he had done that on his 
canoe, Dan Coody must be a pretty good guy. And he is a good 
guy, and one of his great strengths is he brings people 
together, and certainly he did that after Katrina, and he 
really pulled Fayetteville and that region of the State 
together and really did some great things.
    So, Mayor Coody, thank you. Thanks for being here.

 TESTIMONY OF HON. DAN COODY,\1\ MAYOR, FAYETTEVILLE, ARKANSAS

    Mr. Coody. Thank you very much, and I appreciate the 
Committee's willingness to invite us here to hear all we have 
to say, because we all appreciate your efforts in fixing these 
problems that we have all experienced. And, Senator Pryor, 
thank you for your kind words. I appreciate it.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Coody appears in the Appendix on 
page 100.
---------------------------------------------------------------------------
    I want to first say that I am humbled as mayor of 
Fayetteville. We have a wonderful community. But we were 
relatively unscathed compared to the scope and magnitude of the 
damage and disaster that my colleagues here experienced. I do 
not have the stories to tell about the wind damage, the influx 
of such huge numbers of folks coming to town unexpectedly, and 
the infrastructure problems that have precipitated the reason 
that my colleagues are here today.
    What I have to offer is how Fayetteville responded in the 
hopes that we can take this experience and make this a national 
model for other small communities in regions across the 
country.
    As the crisis unfolded with Katrina, I instructed my staff 
to assess our resources and coordinate with local emergency 
efforts to develop and implement a response plan as soon as 
possible. Earlier this year, Fayetteville had purchased a 
126,000-square-foot industrial building to convert into a joint 
police department, fire department, and emergency response 
center. The closed and empty facility offered tremendous 
warehouse space with loading docks useful for regional 
collection, handling, and distribution center. It also 
contained plenty of office space where local nonprofits could 
assist survivors of the hurricane that had made their way to 
Fayetteville. We felt this would be an ideal site to coordinate 
local response efforts.
    Even though the communication and information systems 
established by Federal and State emergency plans were not 
functioning, and in some cases being abandoned altogether, we 
had to move forward and prepare for an influx of evacuees and 
assure that our local communications were strong and 
sustainable. After all, we would ultimately be responsible for 
evacuees in our area.
    County and City officials met with emergency responders, 
the Red Cross, the Salvation Army, local churches and church 
camps, regional transportation officials, local media, and 
everyone else we could think of. While county officials tried 
to establish communication lines with State and Federal 
officials, our city staff worked to prepare the industrial 
facility for occupation. The entire abandoned building was 
cleaned, electrical transformers and phone lines were 
reinstalled, office equipment and furnishings were brought in, 
as were forklifts and pallets. Two days later, the facility was 
prepared to ship and receive, house local nonprofits, or be 
utilized for any other activity that was needed in the region.
    Coordinating with Congressman John Boozman's office as well 
as Senator Pryor's office, several tractor-trailers that had 
been strategically located throughout the region by various 
officials and organizations to collect local contributions were 
sent to our warehouse for collection and distribution. However, 
a clear plan for the organized collection of such a huge volume 
of goods, in addition to the sorting, storing, and distributing 
to the local shelters or to the Gulf Coast was not in place.
    When the first of 14 packed trailer-loads arrived at our 
facility, we unloaded the first two and quickly realized that 
much more assistance was needed to efficiently process the 
donations and prepare them for distribution. We requested 
assistance from Wal-Mart, and they immediately responded by 
sending two engineers to create a warehouse system for our 
facility, a distribution center supervisor, and two additional 
employees to oversee the operation. During peak hours, we had 
over 100 volunteers, city employees, Wal-Mart employees and 
county laborers working side by side to organize the donations. 
The trailers were unloaded by Saturday, September 10, and the 
donations were completely sorted by sex, by size, by quality, 
and ready for shipment 5 days later.
    Survivors that had made their way to Fayetteville to stay 
with family or friends began to stop by the distribution center 
in search of financial aid, food, clothes, and other 
assistance. We had not anticipated receiving evacuees at the 
distribution center.
    We were not sure how to provide appropriate assistance. One 
by one we heard the stories of survivors being bounced from 
place to place and from town to town, so we took it upon 
ourselves to find answers, information, and assistance for 
everyone who needed it. We pulled boxes off pallets and made 
food and clothes available to these individuals and moved all 
the relief agencies in the offices to create a one-stop 
location where evacuees could access various types of 
assistance and support. Distribution center staff were 
instructed the next morning to begin setting up a store 
environment where people could ``shop'' for what they needed--
free, of course.
    In addition to food and clothing, many of the evacuees 
still needed to register with the Red Cross and other agencies. 
Others looked for possible housing options.
    We made office space, tables, chairs, copy and fax 
machines, telephones, and Internet access available to 
organizations such as the Red Cross, the Salvation Army, the 
Department of Human Services, the Health Department, and FEMA. 
The city also staffed a front office Help Desk to help direct 
over 400 to 500 evacuees--we are not sure--to the right place 
and provide information as needed. FEMA maintained a presence 
and assisted people in the center for 2 days. A local volunteer 
provided ongoing assistance with this endeavor after FEMA left. 
OpenYourHome.com also works from an office at the center. This 
local organization is operating nationally now and has matched 
over 3,100 survivors with housing opportunities in desired 
locations.
    We shipped material to the Salvation Army staging warehouse 
in Corsicana, Texas, to the stricken areas of Louisiana and 
Mississippi. Many of these shipments were sponsored by local 
businesses and churches and were arranged by making direct 
contact with community members in the affected areas. One 
example of city-to-city communications occurred when the City 
of Fayetteville connected with Louisiana State Senator Ben 
Nevers. We established what supplies were needed at which 
locations, arranged the transportation, and shipped supplies 
directly to that location. We learned many of the rural areas 
were not receiving adequate support and were still in desperate 
need of various items that we had in stock. So we focused our 
large-scale distribution efforts on the more rural areas of 
Louisiana. While we had food, water, wheelchairs, baby 
supplies, and about everything else you can imagine palletized 
and ready to go, our efforts to communicate and coordinate the 
movement of our supplies to those areas that needed them the 
most was our biggest challenge.
    The center has experienced many great success stories, and 
I believe this is due to the fact that all of the leaders at 
the local level cooperated, communicated, and responded to the 
needs that were presented to us.
    It is our obligation as government officials to provide the 
leadership and resources needed to reinforce the approaches 
that worked and reinvent those approaches that failed. These 
lessons learned must be clearly articulated, incorporated into 
our local, regional, and State emergency response plans, and 
implemented in the event of another disaster. As Fayetteville 
continues its plan to build a state-of-the-art police, fire, 
and emergency response center, we will incorporate what we 
learned from this experience. We will preserve in our facility 
the capacity to ship and receive large quantities of material 
when necessary. These warehousing areas can be used for a 
variety of community functions and city operations in such a 
way that they could be quickly prepared for disaster relief. 
The county and the city will be partners in an emergency 
operations and communications command center.
    But no matter how hard we work, we will not be as effective 
as we could be without direct communication and information 
between all levels of government. If the established, 
practiced, and well-funded statewide emergency response system 
is circumvented so that local governments, emergency managers, 
and agencies are left to rely on guesswork, we will again 
witness unnecessary suffering, confusion, and frustration. City 
and county governments all across America stand willing and 
able to do whatever is necessary to help our neighbors in 
crisis. Those of us in local government will not stand idly by 
as tragedy unfolds simply because we were not told what to do. 
We will act. We will focus our resources and we will figure out 
what needs to be done and how we need to do it. But without 
coordination with our State and Federal Governments, our 
effectiveness will be limited and the suffering of our friends, 
our neighbors, and our families will be prolonged for no 
reason.
    The Fayetteville Disaster Relief Center could serve as a 
model for coordinating local resources. Centers such as ours 
could be strategically located, grounded in public-private 
partnerships, and be ready for activation on a moment's notice. 
This center would not have been possible without the influx of 
city resources, the logistical assistance from the private 
sector, the dedication of our local volunteers, and the strong 
positive relationship between county and city officials. It is 
also important to recognize that such a system should already 
exist within the established emergency response infrastructure.
    Our efforts were successful for three reasons: First, we 
had a facility in which to work and coordinate the movement of 
goods and services; second, our local leaders, agencies, and 
nonprofits communicated well; third, our community pulled 
together to help our neighbors in need.
    I would like to thank Fayetteville and Washington County 
residents for opening their homes and checkbooks and giving 
their very important time. Without dedicated volunteer help, 
unconditional support from our community, and tireless work 
from our staffs, local officials, and first responders, none of 
our efforts would have succeeded. Our goal was to create an 
operation that would provide as much benefit as possible very 
quickly. My hope is that all government officials share that 
same goal, as I know you do.
    Thank you all very much for having us out here today.
    Chairman Collins. Thank you very much, Mayor.
    I am struck, as I listened to your testimony, that the 
experience that at least two of you have had with FEMA has been 
very different, and this is typical of what I am hearing when I 
talk to State and local officials throughout the region. Some 
communities have had a very positive experience with FEMA, have 
found the agency to be responsive, prompt, and effective, while 
other communities have had exactly the opposite experience. 
They have found that FEMA officials have been inaccessible, 
slow to respond, and difficult to deal with.
    This is a key issue for this Committee, and it is helpful 
to get your firsthand experience as communities who have taken 
in a large number of victims of Katrina, but also in some cases 
as communities who have been directly affected by Katrina's 
winds or rains.
    I want to ask each of you to give me a better understanding 
of your experience in dealing with FEMA so that I can try to 
identify why various communities have such different 
experiences. In the case of Judge Eckels, I would also like you 
to let us know whether you had communication from FEMA prior to 
Hurricane Rita, giving you advice, asking you whether you 
needed help in evacuating Houston and other areas. So, Judge 
Eckels, I will start with you. You in some ways answered my 
question in your testimony. But what about prior to Hurricane 
Rita? What was the communication like from FEMA? And were you 
satisfied with it?
    Judge Eckels. Well, as I mentioned earlier, FEMA has been 
engaged in our community very actively. We had some 
miscommunications between the local officials and the 
Washington officials. In fact, the problems that we had in our 
shelter operations would probably have been tracked back to 
decisions made in a vacuum, not responding to the needs of the 
folks at the local community.
    Tom Costello and his FEMA crew in Houston have been 
wonderful to work with. We have established programs where the 
county can contract for shelter space with various churches and 
the faith-based community, and the faith-based community has 
been really stepping into the breach in dealing with the 
evacuees in our region. We have great relationships with FEMA 
and the Federal housing officials. In fact, we have a virtual 
office from New Orleans. Their housing office director was 
bused into Houston as part of the evacuation, so we've set up 
with our folks as well. So between the HUD Section 8 and FEMA 
assistance, housing has worked very well.
    We had an issue with the initial evacuation where we had no 
communications. We have heard some discussion about 
communications, not just the interoperable communication 
systems I think the mayor here mentioned between radios and 
other issues, but the communications coming from Louisiana and 
from the FEMA presence in Louisiana were seriously lacking. 
Whether it was FEMA or the State of Louisiana, I don't know, 
but as the evacuation proceeded, we had no clue to what was 
going on. We were expecting to have buses relocating people 
from the Superdome to the Astrodome. That did not happen. Our 
Texas State troopers showed up in Louisiana and there was no 
escort nor troopers from Louisiana to guide them to get to the 
Superdome. When they got to the Superdome there were no buses. 
Where that failure occurred, I do not know.
    Once they got to Houston though, we had ultimately geared 
up to process close to 40,000 people through our shelters. Many 
would be reunited with family and others would backfill into 
that space. Things worked pretty smoothly with our FEMA folks. 
They had set up, prior to Rita, the first disaster recovery 
center. They partnered with Houston and Harris County, largely 
because we had been through this in Tropical Storm Allison 
before. We had a good working relationship. We know what to 
expect from FEMA.
    I had a lady on the radio yesterday calling in that had a 
tree on her house, and she was upset. ``Where is FEMA? They are 
not taking care of me.'' Well, first where is your insurance 
company? It is a disaster to her, but it is not really where 
you need those FEMA assets, and people do not really understand 
FEMA. I was listening to a sheriff in Louisiana who was 
complaining that FEMA had sent no money. At the same time I had 
just received an allocation of committed funds from our State 
Emergency Management Office for $9.7 million that we could 
directly draw down to pay for Katrina expenses. It was because 
we had understood the system. We had worked the system. We had 
drilled and trained on the system. Was it Lee Trevino who said, 
``your luck follows upon how much you practice.'' So we got 
lucky with FEMA. We practice with them and we drill 
continuously so we know what to expect from them. They know 
what capacity we can deliver. The warehouse that was mentioned 
here, the City of Houston delivered the warehouse, but FEMA set 
up the Disaster Recovery Center.
    As we get into Rita and the issues with Rita coming in, 
yes, we were in contact with FEMA because they were already 
there dealing with Katrina, so their officials were there. The 
Astrodome had since been emptied as a shelter space. It now 
served as the pre-positioning location for the Texas Task Force 
One, FEMA Search and Recovery, the Coast Guard, all of the 
officials to then project into East Texas and Louisiana.
    Chairman Collins. Thank you.
    Mayor Holden, it is troubling to me that 3 weeks after 
Hurricane Katrina, you are still unable to get the name of a 
point person from FEMA for individual assistance, as well as 
you pointed out the immediate need for a FEMA coordinator to be 
located within your emergency operation center. So it sounds 
like you have had a different experience. Could you elaborate 
on it?
    Mr. Holden. Yes, I have. I have had a different experience, 
but let me tell you, for the first time last night I got a 
call--I do not know whether they knew I was testifying before 
you---- [Laughter.]
    Chairman Collins. I suspect that might have something to do 
with it. We have found that before when we have held hearings.
    Mr. Holden. Let me go and say that the point person is 
needed because our office actually became an arm of the State, 
and that is not said lightly. Many people could not get through 
to the State's Office of Emergency Preparedness, and so when 
they looked for the office, then virtually they called our 
office, so thank God we have a staff and all of the players 
located there, including State Police, State services, the 
local communities, Red Cross, you name it, everybody is there.
    But when those phone calls started coming in, for example, 
Chalmette, Louisiana, which would have normally gone to the 
State, and they are saying, ``Hello, we have people trapped in 
our school building. Can you send somebody to help us?'' Well, 
that call should have gone to the State, but the call came to 
us, and we therefore had to fill in the void to try to get 
somebody to save the people trapped in the building.
    What you saw was just government that was really management 
by crisis would be the best way I could put it. So you saw, for 
example, the second night after the levy broke or the breach, 
then we started receiving these calls from the State, ``I need 
66 buses right away. Can you round up these buses to send to 
New Orleans in order to get people evacuated?'' Well, there was 
a problem because some rescuers were taking fire, I mean 
gunfire. So I said to the gentleman in the governor's office, 
``I cannot in good conscience send a bus down to New Orleans 
unless at some checkpoint you put an armed guard on that bus to 
protect these people'' because I had firefighters willing to 
volunteer in order to drive the buses and help in the 
evacuation. They waffled on it unfortunately, but later they 
brought in our head of our transportation system to then manage 
the whole bus system.
    Let me go back to FEMA. There were two people initially 
that dealt with FEMA housing, a guy named Brad Gair and Walter 
Melnick. For 2 weeks we met, including up until midnight on the 
Sunday after the storm, thought we had an agreement worked out 
on four proposed sites. None of those sites have been open as 
of yet.
    In the meantime, Mr. Gair has been relieved of his duties. 
Now here is the guy who worked out the agreement with the 
parish, and all of a sudden FEMA takes this guy out of the 
picture, and then appoints a new guy a week and a half ago, so 
you do not have any communication that is continuous. So you 
have the other partner that is out there trying to put this 
together, but in light of that fact, we got one community where 
they are putting in infrastructure this week. In that community 
they are saying, ``We are providing transportation, food, and 
we will provide security.'' Well, the little community that it 
is in in our parish, nobody has thoroughly communicated with 
the police chief of the small community or the mayor or the 
fire department, to talk about, well, what happens if a fire 
breaks out in this area, which is just outside of their border? 
Who is going to take care of that? What dollars are you going 
to give us to maybe look at more personnel when you are talking 
about maybe 1,000 or 1,500 more people moving into your 
community? What are you going to do about police protection 
when individuals go outside of that confined property? I mean 
all of those things are going on.
    Distribution of dollars. If you looked at the paper last 
week, yes, FEMA gave away a lot of money, but then we have our 
State Department of Health and Hospitals saying, ``Whoa, you 
know, you have given us all of this money. We cannot spend all 
of this money.'' Then you have us saying, ``Well, can we just 
have this little piece here,'' that is much less than what they 
gave, ``Can we have this little piece because we have some 
critical infrastructure needs because somebody has to begin to 
not only look at the point of impact where the hurricane hits, 
but they have to look down the line to see what else is 
happening.'' They did not look far enough down the line to look 
at the impact on other cities.
    Chairman Collins. Thank you, Mayor.
    My time has expired, so in the second round I will ask the 
two remaining mayors to respond to my question as well.
    Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Thanks to the witnesses, very helpful testimony. It strikes 
me that part of what we are going to find out in our 
deliberations and want to help clarify is something that Judge 
Eckels said, which is that there is a lot of confusion about 
what FEMA can and cannot do. We have a lot of concerns about 
what they should have done and did not do, but as in your 
story, there are some things that people should not be turning 
to FEMA for. They should turn to their insurance companies, for 
instance, or themselves.
    I must admit that I share Senator Collins' concern in Baton 
Rouge, so obviously the recipient of an enormous number of 
evacuees from New Orleans, that with this period of time up 
until last week that you did not have a designated FEMA 
contact. I wonder if part of the problem here--Judge Eckels, if 
I get it correctly you have a FEMA regional headquarters in 
Houston or am I wrong?
    Judge Eckels. I do not know the regional headquarters. I 
know Tom Costello shares our Emergency Operations Center at 
TranStar.
    Senator Lieberman. So he is right there.
    Judge Eckels. He would drill and practice in the offices 
with our folks, and anything that comes up----
    Senator Lieberman. All the time.
    Judge Eckels. Not all the time, but when we have an 
emergency they are there.
    Senator Lieberman. Not true in Baton Rouge?
    Mr. Holden. No, sir.
    Senator Lieberman. I thought I heard you say, Mayor Holden, 
that there was a point at which you were dealing with somebody 
from FEMA, Mr. Gair, on housing sites, and that began before 
Katrina hit?
    Mr. Holden. No, sir, after.
    Senator Lieberman. After.
    Mr. Holden. Yes, sir.
    Senator Lieberman. But he was not the designated contact 
for individual assistance that you just got last night or at 
least----
    Mr. Holden. That is correct, he was not. All they dealt 
with was housing. They primarily said, OK, we will go out and 
evaluate sites. They began to sit with us and say, well, what 
are some potential sites? We talked about the potential sites, 
brought ministers in in the areas affected so they too could be 
a part of it. And they made commitments to us including----
    Senator Lieberman. Yes, but nothing has happened.
    Mr. Holden. No, sir.
    Senator Lieberman. Just to clarify it for the record and 
maybe for all of us, on the question of the designated FEMA 
representative for individual assistance, you really mean that, 
that there is no single FEMA person in Baton Rouge for the--how 
many is it, 200,000 evacuees?
    Mr. Holden. Yes, sir.
    Senator Lieberman. Do the 200,000 evacuees know where to go 
to find out what FEMA can do for them?
    Mr. Holden. And that is where the other breakdown came. 
They did not know where to go. It was not communicated to 
people who were living with other families. It was not 
communicated in the shelters. So when they said, ``OK, we will 
open a disaster recovery center,'' what they did was virtually 
almost start a riot because there is no contact with law 
enforcement to say, OK we will be opening up this recovery 
center, and therefore we will need X amount of law enforcement 
there. But then if it would just go to a system, maybe the 
first 3 days, just do A-B in the alphabet or give some people a 
numbering system, because what you have are elderly people, 
people with young children, and all of these people standing 
out in lines all day.
    Senator Lieberman. Right. So that the 200,000 evacuees, if 
they want to figure out, totally dislocated from their homes 
presumably, most of them from New Orleans, what kind of help 
FEMA could give them, there is no central place that they go 
to, so what, they call the FEMA line?
    Mr. Holden. And that is where the problems continue to 
mount because nobody can get through.
    Senator Lieberman. Heard about that too. I am interested--
correct me if these numbers are not right--what I have heard is 
that you have 200,000 additional people, evacuees in Baton 
Rouge on top of a previous population of about 400,000?
    Mr. Holden. Yes, sir.
    Senator Lieberman. I am really struck that of that number 
only 8,000 to 11,000 were initially living in shelters, and 
that is now down to about 7,200. Is that correct?
    Mr. Holden. That is correct, because some people now----
    Senator Lieberman. Where did everybody else go?
    Mr. Holden. Well, some relatives have come in and found 
their loved ones, and we have had some people now that have 
also migrated to other shelters. We have had people trying to 
send us people, but people who also have gone to other 
shelters. So you have a decrease in the number of people 
actually in the shelters because even in the faith-based 
community where they had shelters, they also began to place 
people, but some people actually took up employers on the job 
opportunities to go to other States, and we do not know exactly 
what that number is.
    But now what we are watching is people are now trying to 
bring people closer to New Orleans. The closest big point to 
New Orleans is Baton Rouge, so they are bringing people back 
into Baton Rouge even today.
    Senator Lieberman. Judge Eckels, on this specific point 
which is--because you are the head of the two areas that have 
the largest number of evacuees----
    Judge Eckels. We had about 200,000 as well in the Houston 
area.
    Senator Lieberman. I know you have had cooperation and 
coordination with FEMA on different parts of preparation and 
response, but is there, to your knowledge, a designated FEMA 
representative for the evacuees, displaced people to go to to 
figure out----
    Judge Eckels. FEMA has opened a disaster recovery center. 
It was opened much more quickly this time than it was in the 
previous Tropical Storm Allison experience. We went in--the 
mayor actually seized a facility. Later it was released through 
the State, and it had several hundred thousand square feet. We 
have park and ride service, but we only had one central 
location. Ultimately we would like to see more store front 
offices around as well, but people can go to that location. 
They know where to go. We had similar issues during some of the 
shelter operations with FEMA announcing, mostly from Washington 
programs, and causing concern, such as crowd control issues 
because we were not able to meet those expectations. But, yes, 
we do have a big center in Houston.
    Senator Lieberman. Let me ask you this final question. You 
talked about one of the reasons Houston did well is that you 
had a plan. Was it a plan that was constructed in the immediate 
time before Rita hit or Katrina hit, or was this a longer-term 
plan, and if it was longer term, to what extent did FEMA or any 
other Federal agency help you construct the plan?
    Judge Eckels. The plan started in 1995, shortly after I was 
elected as county judge, working with now three different 
mayors going through the process.
    Senator Lieberman. Was it in response to a particular 
crisis or were you just----
    Judge Eckels. I could not get to a speech during my 
campaign in 1994 because we did not know what the roadway 
conditions were, but ultimately it was Hurricane Mitch going 
through the Yucatan, Andrew coming through Florida, and we 
modeled what those would do in our community.
    As we looked at those various issues and what impact that 
would have, we started developing this plan. After September 
11, substantial Federal funds were put into the National Plan 
Model to beef up local capacity, to increase our ability to 
deal with the surge, to deal with the training. In fact, our 
county is about the same population as Connecticut, so we have 
the resources and ability to absorb some folks. But it is still 
building that plan substance with the local officials so that 
we can deal with that, and the county, the 34 cities in our 
county, the eight-county region, we practice every year for 
this, as part of that national plan and with those training 
dollars that come in.
    Now, what we do when we practice for a hurricane coming in, 
we throw a WMD in the ship channel so we can get some extra 
funding for it, but we do plan and practice every year.
    Senator Lieberman. I hear you. Thank you. I want to come 
back to that. My time is up.
    Thanks, Madam Chairman.
    Chairman Collins. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chairman.
    Let me say to our witnesses, we have a lot of hearings here 
on Capitol Hill during the course of the year, and occasionally 
have witnesses who just do an exceptionally great job in 
presenting information we need to know. This is about as 
impressive a group as I have seen and heard. We thank you for 
being here. We thank you for your testimony. We really thank 
the folks that you are here representing for the extraordinary 
good work that they have done in their communities, for a lot 
of people that they in many cases never knew and otherwise 
would not have known but for these tragedies.
    Each of you have covered a whole lot of territory. I read 
through part of your testimony as you were going along and 
tried to listen to it. In terms of what we need to do, it is 
not overwhelming, but there is a lot to digest and to 
understand and to assimilate and to try to put into some kind 
of plan of action.
    You have all been working and dealing with these issues for 
weeks now. I am going to ask you to put yourself in our shoes 
for a moment, take off your hats, put on our hats, and be 
thinking as what you have each presented to us is what needs to 
be done, and if you were in our shoes, what are some of the 
things that you would put at the top of our to-do list?
    Judge Eckels. Specifically directed?
    Senator Carper. That is for anyone who would like to lead 
on. Can be a judge or not.
    Judge Eckels. Senator, the mayors here from the other 
jurisdictions that have been more directly affected might have 
some specific interests.
    Again, as we look at the healthcare issues, it is 
developing short-term solutions to reimburse our immediate 
costs. FEMA has told us they will do that, but some of the 
costs we are not sure of is the impact that we have from the 
Katrina evacuees on our community. We have had, again, several 
hundred thousand come into an overly stressed system already, 
one that has a large population of uninsured, uncompensated 
care, undocumented immigrant population in the Houston area. So 
there is a lot of stress on the system already.
    When you add in the most medically needy populations from 
Louisiana, Mississippi, and Alabama coming on through into the 
Houston area as well, people who may have had no one to help 
them at home, we see a tremendous increase in mental health 
cases, substance abuse cases, folks who have chronic illnesses 
such as diabetes and other chronic illnesses. Of the chronic 
illnesses, we had one gentleman I was talking to about needing 
a kidney transplant. He was on the list in New Orleans, now in 
our community. So disproportionately we will have received a 
large number of folks coming into the community.
    We need additional assistance for things like our federally 
qualified health centers, the other clinic operations, the 
hospital district and the way funds are allocated to pay for 
uncompensated care. The key is that in these areas there will 
be many folks who will relocate. They have over a year, as 
Mayor Holden, or Mayor Massengill mentioned, looking for 
shelters, perhaps they are talking about trailers to get back 
into Louisiana. A lot of folks are not going to do that. There 
are no jobs. There may be nothing to go home to.
    The Washington Post poll recently showed that close to half 
of the folks were going to stay in Texas and the majority of 
those were going to stay in Houston. So there will be tens of 
thousands of new residents. Not all of them will be healthy. 
They will be the medically needy who are there. So we have a 
huge issue with healthcare.
    I think in the longer term you have an issue of 
transportation and infrastructure on how you move people 
around, and I am thinking in terms of the interstate system. We 
are celebrating next year the 50th anniversary of the 
interstate system. We ought to look at how we make that a more 
robust system to be able to handle these kind of mass 
evacuations, not so much in massive capacity, but something 
that makes economic sense as you link the major economic and 
population centers along the Gulf Coast so that we can move 
more easily between them in those mass evacuation types of 
instances.
    FEMA is probably more of an administrative issue, and you 
will get into what failures might have occurred around the 
country, but the structure is there. The key I think from your 
perspective is to not fall into the trap of building a Federal 
first response that says you are going to come in here and 
solve the problems. The key is to have Baton Rouge and the 
other cities robust and strong and well coordinated so that 
they can respond. And then you can come in with your assets so 
you do not get failures in some spots.
    The President's national plan that they came up with 
working together with the Congress on homeland security, as it 
was created, was a good plan and I believe it will be something 
that should be strengthened and supported with the overlay of 
the national assets. The Army coming in with traffic direction, 
with fuel trucks, with water, a quick response when a local 
community such as Baton Rouge or New Orleans is overwhelmed, 
even Houston could be overwhelmed. Had that storm hit Houston, 
it would have been massive. We had 700,000 customers lose 
power, probably a million and a half people without power just 
in the gale force winds coming through from Rita. It would have 
been much more dramatic had we had a direct hit.
    Senator Carper. Thanks. Mayor Holden.
    Mr. Holden. Thank you, Senator, and thank you for your 
remarks as well. I hope they are listening back home.
    Senator Carper. I bet they are.
    Mr. Holden. Let me just say that there are a number of 
things. From the medical perspective, we found an active case 
of tuberculosis in one of the centers. That person may have 
been there 2 weeks. We do not know how many people have been 
exposed. So there is a medical side that has to be looked at 
somewhere down the line even if it is like the medical alert 
bracelet, or something needs to be set up that if a person is 
undergoing some type of treatment, we need to be able to 
identify what has to be done to make sure that person is not 
integrated into a population that could spread a disease.
    The second thing is that when you are doing evacuation, 
there has to be a system set up whereby you cannot put people 
who have to have medical assistance on the same bus as people 
who need to go into a main shelter. There has to be some way of 
separation. Right now, I think as far as our area, we are going 
to go back and do an assessment of the vulnerable population 
through census tracks, find out who are people in nursing 
homes, where the hospitals are, and then from there we will 
begin to look at maybe can we set up a shelter that is closer 
to the census track, rather than taking people across town. We 
are working on that.
    We have a problem in our school system. A couple of weeks 
ago, again, a child shows up at school. That child, nobody knew 
that child's medical record. The child shows up at school, you 
have a nurse that is there, but a lot of those nurses go from 
one school to another. There has to be some check and balance 
as to the medical records of those children, again, before they 
enter that population.
    The transportation aspect, as Judge Eckels has mentioned, 
you have to look at mass transit, how we can move people 
around. You have to look at the evacuation routes and what else 
can be done in order to enhance moving people from Point A to 
Point B quicker.
    Then the other part is this: We have talked about 
communications. Communications is a must, compatible systems, 
that is a must, nonnegotiable to any of us because of the 
necessity. From there, it is then, how do I go in--as I walked 
in the shelters people are asking the question, ``When am I 
going to be able to move out of here into some temporary 
shelter?'' There has to be some clear and defined timeline to 
tell people when they can look to be moved out of those 
shelters because the other thing that is happening is whereas 
you do not see a lot of people complaining, but the longer 
people stay in the shelters, the less patient they become. We 
have to begin to look at those needs and address them, and then 
see what else you can do while they are in the shelter to make 
sure that they are comfortable.
    Senator Carper. My time has expired. I am going to ask, if 
I could, for Mayor Massengill and Mayor Coody, if you would not 
mind responding for the record, I would very much appreciate 
that.
    I would just say to my colleagues, I am struck again, 
especially listening to the comments of Mayor Holden talking 
about the medical issues that were faced, and comparing the 
situation that we had with veterans who were being treated by 
the VA. For almost every one of them we had an electronic 
medical record, and as they were moved from facility to 
facility, from State to State, wherever they went we knew what 
medicines they were taking, we knew what their MRIs, their lab 
tests were, their x-rays, and we had just a much better 
opportunity, as they were received at a new location, how to 
treat them appropriately. I think Secretary Leavitt has said if 
we ever needed a demonstration as to why information technology 
needs to be harnessed and implemented in the provision of 
health care, we have seen it right here. And I am just reminded 
of that, particularly in the comments of Mayor Holden.
    Judge Eckels. Senator, Secretary Leavitt came to Houston. 
In my written testimony we talk about them and some of the 
things they did. They did a great job for us there. I would 
like also to submit to you in written form from the National 
Association of Counties (NACo) who has gone through these 
issues and asked for specific items. They asked for $300 
billion, and I will not personally vouch for that number 
because I do not know where that came from, but I am on the 
NACo Homeland Security Task Force Committee and operationally I 
will give this to the Committee as well as part of our written 
comment.\1\
---------------------------------------------------------------------------
    \1\ The information from NACo submitted by Judge Eckels appears in 
the Appendix on page 80.
---------------------------------------------------------------------------
    Chairman Collins. Without objection, it will be included in 
the record, as will your full written statement.
    Senator Carper. Our thanks again to each of you.
    Chairman Collins. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman.
    Mayor Coody, I know that in your testimony a few moments 
ago you mentioned the city and the surrounding area took in a 
lot of evacuees, but also you set up a center there in 
Fayetteville, and I would like to ask you about the 
Fayetteville Distribution Center, and first why you did that, 
and then how you did that.
    Mr. Coody. Thank you very much. As soon as the disaster 
started to become apparent, and we saw what it was that 
everyone was having to deal with, we in Fayetteville knew that 
we needed to do whatever we could to help alleviate as much 
suffering as possible. We looked at all of our assets, and the 
best asset we had was this giant defunct warehouse that we knew 
we could turn into a really productive center for collection, 
distribution, and for offices. Whatever we needed to use it 
for, it was at our disposal. Of course it had been completely 
shut down. The electricity had been completely gutted from it, 
and we had to work with the utility companies, Ozarks Electric, 
the phone companies, to reinstall electricity and phones and 
all of that during the holiday weekend, which was not easy, but 
they worked with us, and we got it done.
    We wanted to do everything we could, and that was the best 
tool we had at our disposal. I would like to, if I could--I 
know that Senator Collins had a question about FEMA, and also 
Senator Carper had a question about what we think an 
appropriate response would be. Would it be OK to answer that as 
well?
    Senator Pryor. Sure, please do.
    Mr. Coody. Thank you. These gentlemen have been able to 
discuss FEMA on the macro level. In Fayetteville I would like 
to discuss just for one minute FEMA on the micro level.
    What we experienced, even from our small perspective--we 
did not have the big needs that Baton Rouge, Houston, 
Mississippi, and Louisiana had. We did not have the tremendous 
influx. We had a lot of folks around Fayetteville, and they 
used Fayetteville as a hub. Fayetteville is the largest city in 
Northwest Arkansas, and we had a lot of church camps in our 
region that took in a lot of folks.
    It was 2\1/2\ weeks before we ever heard from FEMA. We kept 
hearing rumors that they were in the area, but we never heard 
from them, a county judge and myself, we never heard from FEMA 
at all. We knew they were around because we kept getting little 
snippets of information that they had gone here and they had 
done this over there, but we could not communicate.
    Senator Lieberman. What were they doing? In other words, 
what did the rumors suggest the FEMA folks were doing?
    Mr. Coody. Well, one of our largest encampments is at 
Siloam Springs, 30 miles west of Fayetteville. And we 
understood that FEMA had gone over there to register people, 
but for some reason had been turned away, and we were not quite 
sure if that could possibly be true. So when we finally did get 
with FEMA, they came to our facility well after it was 
established. Five or six FEMA people came in, good folks. They 
were firemen. They really want to do a good job. They were 
completely out of the loop, and they were as frustrated as 
anybody else I have ever seen in the whole process.
    I asked was it true that--was this the team? Were you the 
guys who got turned away at Siloam Springs? If so, what 
happened? The leader of that team said, ``We do not know. We do 
not know who that team is. It is a different team.'' I said, 
``Can you call them to see who, what happened?'' He said, ``We 
do not know who they are or how to get in touch with them.'' 
This was the second FEMA team in our area.
    These gentlemen had been sent here from Rhode Island. Most 
of the team was from Rhode Island, firemen from Rhode Island. 
They complained that they had been in Atlanta for 3 or 4 days 
with sensitivity training, when they really wanted to go out 
and do their jobs.
    So we visited about that for a while. It was clear that 
while they were being sent from Rhode Island down to 
Fayetteville to basically hand out pamphlets and do a little 
bit of paperwork, which our Red Cross folks essentially did as 
well, we had firemen in Fayetteville that could have done that 
job just as easily and they were already there on site. It only 
took one person to do it, not 5 or 6. Whereas a lot of these 
gentlemen had too little FEMA response too late, we almost had 
too much too late because these gentlemen did not need to be in 
Fayetteville. They were great guys, but we had people on the 
ground that could have done the job for them. They should have 
been sent to the regions that needed them the most, and they 
should have been able to communicate between teams. That was 
one thing that was kind of bothersome to us.
    As far as what we could do--what my perspective is that I 
think FEMA could do to make its job more effective is that I 
have always believed that any program or process will succeed 
or fail based on the leadership in that program. I think that 
from the very top to the very bottom, speaking of the micro 
level, there needs to be a system put in place where we hire 
the most qualified, most knowledgeable people for the job that 
want to do the job and put them in a position where they can 
lead, and to work closely with local municipalities and the 
counties because we are where a lot of the rubber met the road 
in this whole disaster, and for the localities to be left out 
of the loop, I think, is a major oversight that could have 
avoided a lot of suffering from folks.
    Senator Pryor. Thank you. Mayor Coody, one of the things 
you did in setting up this center, this distribution center, is 
you reached out to the community and to the resources in the 
community, and given the fact that Wal-Mart is some 15 miles 
from the city courthouse, you talked to Wal-Mart and they 
helped you organize this distribution center. Then how did you 
use the distribution center? How was that actually used?
    Mr. Coody. Well, there were huge loading dock areas and big 
storage areas because it had been a big food processing 
factory, the Tyson Corporation. Once we started seeing that we 
were going to have this enormous influx of material, we knew 
that there was no one better in the world for distribution and 
collection than Wal-Mart Corporation. So we made some calls and 
they immediately sent down some folks, and they showed us how 
to arrange a warehouse and they made it spin like a top. So we 
called on our private partners, private business partners in 
the region to help us do this.
    And with their help and the volunteers that we called in, 
we were able to have a lot of volunteers unload these semis 
that were pulling up. They sorted all this material that came 
in, and it was a broad range of material, from microwaves to 
baby clothes to wheelchairs, you name it, we had it. It was all 
sorted by gender, by size, by function. We threw about 6 
percent of it away because a lot of people just cleaned out 
their closets and cleaned out their garages. Those we took to 
the dumpster, but 94 percent of pretty much everything we got 
is usable and folded, and it is palletized, and it is labeled 
to where when you get a pallet of material, you know that it is 
a boy's baby clothes, or it is medium size women's wear. It is 
all folded, ready to go. It is water, it is baby food.
    We were able to work with--we did not get much help. Now, 
Congressman Boozman, you have been very helpful with this, but 
we have not had any communications from the State or Federal 
level about the needs in these areas. I would love to send what 
remains of our product--it is good material--to these areas 
that need it in Mississippi, Alabama, and Louisiana. But for us 
to actually communicate with these folks because communication 
lines have been down, to find out what their needs are and how 
we can get it there is a problem.
    We asked J.B. Hunt and other trucking firms, can you please 
donate your time and some drivers to load up this trailer that 
we have loaded up and ready to go, and take it to a particular 
town in Louisiana? And they said, sure, they would come pick 
them up, and they dropped them off.
    There was one gentleman who came in from Kansas City. He 
had a semi-load of water and baby food, and we got a call from 
Bogalusa, Mississippi, that said, ``We need water and we need 
baby food.'' And Susan Thomas, who ran a spectacular program, 
was about to go to Wal-Mart to buy some stuff out of her own 
paycheck to send down there because the stories were so heart-
rending. As she was leaving this semi pulled in, said, ``I have 
a load of baby food and water, and I am told to get off the 
road because I am overloaded. Everybody was telling me I cannot 
park there. They said try you guys.'' Soon as we saw what we 
had, we gave him a map and we said, ``This is where you need to 
go,'' and we sent them on their way.
    As they pulled into Bogalusa and off-loaded food, baby 
food, adult food, and everything else, people started opening 
packages and eating food directly off the truck because they 
had not had any food in 3 days.
    To know that we had material sitting there ready to go and 
no knowledge of how to get it there and no real infrastructure 
to get it there, it broke our hearts.
    Senator Pryor. Thank you, Mayor.
    Mr. Coody. I hope I answered your question.
    Senator Pryor. You did. It was fantastic. I need to mention 
that Congressman Boozman, who is from the 3rd District in 
Arkansas and represents this area, was here a few moments ago, 
but he had to go to one of his committee hearings.
    Also, Senator Lieberman, to follow up on what you said, 
when I was touring the camps, and other places in Arkansas, I 
heard that story more than once, where mostly firemen from 
other States had gone through some FEMA training for maybe 3 
days in Atlanta, if I remember correctly. Then they came to 
Arkansas, and they wanted to volunteer, they wanted to help, 
they wanted to be hands on. And all they were allowed to do is 
go around and hand out flyers with a toll free number and a 
website.
    In fact, in one camp in the other part of the State, they 
told me that when FEMA finally did show up, everybody was angry 
because that is all they had to offer: A website and a flyer. 
They did not have any real resources that they could give, so 
clearly we need to look at that and continue to work through 
that. Thank you.
    Chairman Collins. Thank you.
    Mayor, thank you for answering my question so well. And 
thank you for doing it on Senator Pryor's time. [Laughter.]
    I particularly appreciated that also. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman.
    Mayor Coody, I thank you for your testimony, and all of 
you, welcome to the Committee.
    Mayor Coody, you talked about the importance of strong and 
sustainable communications--all of you did--in your response to 
the emergency. This was a major problem on the Federal level, 
but it appears you had some communication problems at the local 
level, as you have stated. I would appreciate it, Mayor, if you 
could explain how you solved this issue at the local level, and 
also ask the others to make comments about that.
    Mr. Coody. How we solved it on the local level was that I 
had the phone number for the county judge and the local 
emergency responder, John Luther, for the county. And we just 
stayed in contact. We also knew the local folks that worked 
with the Red Cross and the Salvation Army. Department of Human 
Services, all the county agencies were under the county judge 
and the nonprofits and the service organizations. We had access 
to everybody because we had each other's phone numbers, and we 
were able to communicate with the town through the media. Of 
course since we were not damaged by the storm, all of our 
telephone communications infrastructure was still in place.
    But it was as if there was a wall around Washington County 
in Fayetteville from the outside world. We did not hear 
anything, and that was the most disturbing thing to us because 
we had to keep our knees flexed and just prepare for the 
unknown. We had no idea what was coming our way, what was 
happening. We would hear, ``Well, there are 9,000 more people 
coming in,'' and they would not show up, and then all of a 
sudden we would look up and there would be people coming from a 
direction we had not expected. We just never got any solid 
information. And that continues to this day. We still are not 
in the loop on what exactly is going on. It has been almost a 
month now.
    We have had plenty of opportunities to fine tune our own 
internal services communications, but we still have a lot of 
work to do outside our locality about how we can better 
communicate.
    Senator Akaka. Mayor Massengill.
    Mr. Massengill. We had a meeting every morning. We had the 
supervisors from the county. We had the city officials that 
would meet. We had the department heads. We would then try to 
get the word out to the people as best we could. When we got 
electricity, which began coming back late Tuesday, and on 
Wednesday after the hurricane we went on the radio every 
opportunity we could to let people know what to expect. We 
tried to keep people well informed. We had trouble with the 
phone. Our cell phones, it is unreal how many calls--I know on 
the Mississippi Gulf Coast, for instance, normally they will 
have probably several hundred thousand calls in a day, and they 
had 5 million during this particular time. So they were 
overworked. But we did try to communicate by cell phone as much 
as possible, and got on the radio as soon as we could.
    Senator Akaka. Mayor Holden.
    Mr. Holden. Yes, sir. We basically had to take the 
situation into our own hands, and we went in and took the 
calls. We had all agencies around the table in our Office of 
Emergency Preparedness. We do hourly briefings when we are in 
the crisis mode, try to find out exactly what is going on from 
each agency, get their report, and then map out an orderly 
response to that. Where we found a lot of problems, again, came 
on the medical side, whereby at LSU they set up a center to 
triage patients, and let me commend the Army staff and the 
medical staff from the Federal Government and LSU, working 
together to try to take care of a number of people whereby they 
converted the Pete Maravich Center into a hospital.
    All of these individuals worked well together, but again, 
the communication came the same as the gentleman here, is, OK, 
there is a bus load of people that just showed up, and how do 
you actually get those people in without any notification of 
what you will need in order to take care of patients, some who 
have been virtually starving for 3 and 4 days, many elderly. 
What do you do? So that communication there was really a major 
problem. So what you had were professionals making the 
assessment on the spot, in spite of line or breakdown in 
communications, they made very good moves on the spot and were 
able to save a lot of people based on their wisdom and their 
efficiency.
    Senator Akaka. Judge Eckels.
    Judge Eckels. Two things that we did in Houston, maybe, a 
little different. We were operating a joint emergency 
management center through our TranStar operation. It is a joint 
project of Harris County, the City of Houston, Texas Department 
of Transportation, and the Harris County Metropolitan Transit 
Authority. We do traffic management daily in that facility, and 
in emergency situations we also had representatives from FEMA. 
During Rita we also had a representative from the U.S. Army and 
from the State's Division of Emergency Management. We have all 
of those folks in that office.
    During Katrina we had a meeting every morning at 8 a.m. at 
the Reliant Park Complex with the mayor and I together with the 
various providers such as Guy Rankin and John Walsh from the 
housing departments, Harris County and the City of Houston, 
respectively. On the medical side, Dr. Palacio from the Harris 
County Health Department from our hospital district, Dr. Maddox 
of Ben Taub Hospital, and Dr. Persse from the City of Houston. 
We had interfaith ministries, Catholic charities through 
Archbishop Fiorenza from Houston. We had representatives from 
the Second Baptist Church, and from various African-American 
coalitions of churches from the faith-based community that 
provided a lot of services. And Senators Cornyn and Hutchison 
both had representatives there to meet every morning at 8 
o'clock throughout the disaster to avoid exactly the problems 
that are here. Just a communication fusion center, if you will, 
where we could help each other and share the information.
    The one thing that you could probably do here more than 
anything else to help with some of the technical sides of the 
communication from our side is to provide funding for our 
Harris County Communication Radio System. It is an 800-
megahertz trunk system. It is a ``Smart Zone'' Motorola system. 
It has over 700 entities participating so we can share and 
build a dynamic communication system for the community, with 
one exception--the City of Houston. Their airport system is on, 
but we could use some grant funding to help them get their 
police and fire departments on the system. It is expensive to 
move tens of thousands of radios from the police and fire onto 
our regional system. We need grant funding for the City of 
Houston, it would also be very helpful to open up those 700-
megahertz channels so we can get the digital and streaming 
video as well, it would be very helpful. From a Federal 
perspective, those two areas are things you could do to help 
us. But the mechanisms are in place for these joint centers for 
communications among jurisdictions. And the FEMA representative 
that had my cell number called me yesterday morning to give me 
an update.
    Senator Akaka. Madam Chairman, let me ask one question just 
to finish this with Mayor Coody.
    You talked about FEMA, but a question in my mind is, if you 
could answer briefly, why did FEMA leave after 2 days at your 
relief center?
    Mr. Coody. I can answer that briefly. I do not know the 
answer to that question. [Laughter.]
    Senator Akaka. Thank you.
    Chairman Collins. Thank you, Senator. Senator Levin

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman.
    First going back to your description of the needs in the 
communication area, Judge Eckels, would those needs be there 
with or without this current situation?
    Judge Eckels. Yes.
    Senator Levin. So that is an ongoing----
    Judge Eckels. We have built a system that can be scaled up 
and respond to other disasters. When the Shuttle Columbia 
crashed and during the recovery efforts in East Texas, we 
projected our communication system up there and worked with 
NASA to use our system for helping that recovery effort. So, 
yes, we do use this on a daily basis, and it improves not only 
our capacity but our potential as well. You cannot build a 
system for a disaster that might come once every 10 or 20 or 40 
years. You can build a sustainable system that works every day 
and can be scaled up and respond when you have this kind of 
mass disaster.
    Senator Levin. The effort to get what is called 
interoperable communications around here, which is being led by 
this Committee under the leadership of our Chairman and Ranking 
Member, is a major initiative that is going on here, and I 
think that would be true in all your communities, that there is 
the need for that kind of communications equipment, which is 
obviously more desperately needed in a situation where there is 
an emergency, but is needed on a day-to-day basis.
    Judge Eckels. We have today, Senator, over 700 agencies 
that have joined together. It is not just Harris County. We 
form the backbone for a 15 county regional communication system 
now. They are all on the system. If we need to set up special 
talk groups, we can do that dynamically through our central 
locations. The only hole in it right now is the big hole of the 
City of Houston. They are patched into the system, but that is 
a big expense for the city, and on their behalf I would mention 
that.
    Senator Levin. This testimony hopefully will help us get 
this Committee's initiative acted upon.
    Let me ask each of you the question about what the 
expectation is in terms of reimbursement, if you have not 
covered that area already. Are you given a description of 
precisely what expenditures will be reimbursed and which ones 
will not? Do you have that in writing or is that on a website 
somewhere?
    Judge Eckels. We have a list that we got from FEMA on that, 
and when there are questions, they have been very flexible on 
how we can deal with those issues. They have been very clear on 
what is reimbursable and what is not.
    We did accelerate the housing issues, for example. The city 
went forward and issued housing vouchers, assuming the 
paperwork would catch up.
    Senator Levin. There is no ambiguity in your mind as to 
what you are reimbursed for and what you are not?
    Judge Eckels. Small ambiguities but not serious.
    Senator Levin. Mayor Holden.
    Mr. Holden. We have submitted the early documentation 
behind Hurricane Katrina, have not received a dollar as of yet.
    Senator Levin. In addition to not receiving the money is 
there any ambiguity as to what you are eligible for 
reimbursement for?
    Mr. Holden. I think the judge brought it out earlier, in 
regards to people who now would be performing one task, but due 
to the influx of people coming in, they have to do multi-
tasking, as to whether or not some of those charges should be 
taken care of as well.
    Senator Levin. Is there any other ambiguity other than that 
one?
    Mr. Massengill. There is some ambiguity. The city cleaned 
up a tremendous amount of debris. We cleaned up in excess of 
10,000 cubic yards of debris. We are told that we will only be 
paid for overtime hours for that, yet we needed to get that 
cleaned up so that school buses could travel the streets, so 
that the streets could be made two-lane rather than one lane. 
We now have FEMA and the Corps of Engineers--and by the way, 
the Corps of Engineers has been extremely professional in the 
way they have approached this.
    They have come in to handle the overall cleanup of the 
remainder of the debris, which is over 10 times what we have. 
But we cannot understand why we are only being reimbursed for 
overtime hours when we have put in a tremendous amount of 
effort to get our city operable.
    Senator Levin. We can forward these ambiguities to FEMA and 
ask for clarification and get you their answers so we can carry 
on that dialogue with them.
    Mayor Coody.
    Mr. Coody. I have the same response.
    Senator Levin. We read that there are--I do not know how 
many thousand adults who are--the number we have been given is 
that people are looking for 4,300 children. We are trying to 
figure out how many children are out there--I am trying to 
figure out anyway--the number of children who do not have a 
guardian with them or a parent with them or somebody with them 
who can identify them, who knows who they are. In your 
communities, are there children who are not with a parent or a 
guardian or some adult who knows who they are?
    Let me start, Judge, with you, just kind of a yes or no, 
and if so, how many.
    Judge Eckels. I cannot answer. I know that we did initially 
have that problem. In New Orleans, as they were leaving, they 
were splitting families up and putting them on buses, which was 
very traumatic. I have no idea why that loading was done in 
that method. I cannot tell you any numbers that we do have now, 
but I will get that information for you. We have done that 
match, and I will check and see if there are any left.
    Senator Levin. It is amazing to me that we cannot get this 
information yet.
    Judge Eckels. There needs to be a single point to have all 
that gathered, and there is no single national point for that.
    Senator Levin. We have tried to find that point, and it is 
hard for us to imagine why there is not a point. We know how 
many adults there are that say they are missing children, but 
we cannot find how many children there are that are not 
connected to an adult.
    Mayor Holden.
    Mr. Holden. Yes, sir, my response is the same as the judge. 
We know that there are some, especially in the Red Cross 
shelters at Southern University and at the River Center, but 
again, the numbers, because you have the faith-based shelters 
as well, so we do not know exactly how many children are 
without a parent at those shelters.
    Senator Levin. That are unidentified.
    Mr. Holden. Yes, sir.
    Senator Levin. So you have unidentified children in your 
community.
    Mr. Holden. Yes, sir.
    Senator Levin. OK.
    Mr. Massengill. We do not have.
    Senator Levin. Mayor Coody.
    Mr. Coody. Not that I know of.
    Senator Levin. So there in those two communities at least, 
if you could get us those numbers.
    Judge Eckels. We will look into that. Our Children's 
Protective Services office is getting that.
    Senator Levin. We have tried to get this from the Missing 
Children Office as well, and they do not have----
    Judge Eckels. There may be some that have not been 
identified, but I will find out for you, Senator.
    Senator Levin. All right, that will be helpful. I am out of 
time, thank you.
    Chairman Collins. Thank you, Senator. Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Madam Chairman.
    My deep respects to each of you for your public service, 
some of you under most extraordinary circumstances. By 
coincidence, the four of us here are on the Senate Armed 
Services Committee. The government, our government, the Federal 
Government, is currently reviewing the framework of laws that 
enable our President, at times, to exercise authority with the 
Federal forces at his disposal, namely, the regular Army as 
opposed to the National Guard, to assist and give support when 
crisis situations descend upon our Nation. The study embraces 
the concept of use of weapons of mass destruction, which we all 
pray will never occur, but we must be prepared, to situations 
not unlike what we experienced with Katrina, where local law 
enforcement is simply overwhelmed or the chain of command in 
local law enforcement breaks down, and whether or not to 
provide clarity of law, Federal, to give our President, whoever 
it might be, the authority to utilize the military in what we 
call law enforcement roles.
    I am not a proponent of any particular move at the moment, 
but I have undertaken to encourage that we study it. But we 
need the input from persons like yourself as to what you have 
experienced in terms of the breakdown of law enforcement, 
usually in the immediate aftermath of whatever tragedy occurs, 
and whether or not the ability of the regular military, should 
they be brought to bear in a crisis situation, should have or 
have not the ability to work with local law enforcement in 
actually the arrest, detention, and otherwise of those who have 
the terrific misfortune of trying to engage in crime in the 
wake of such situations.
    Now, among you, anyone who would like to volunteer an 
opinion? We have a great respect for sovereignty of a governor, 
the local governments, State and local governments, and this is 
a question of the sovereign jurisdiction of the State. But 
there are situations in which that authority might have to be 
exercised, and it indeed could be some of your fellow office 
holders in other areas of the country or your area might wish 
it to be there.
    Judge Eckels. Senator, I have had some chance to comment on 
this in the past, only to say that I think that there may be a 
role for that, but you should guard that it is not a trigger 
pulled by DOD, but by the President or Homeland Security. The 
key is still that the officials on the ground need to know and 
need to be built into a more robust system. The National 
Response Plan can work unless it is an overriding disaster and 
that plan is gone. When it comes to the issue of sovereignty, 
that is something that endangers other folks.
    We have, again, potential for Federal assistance in our 
evacuation plans, which occurs over vast distances, when you 
are going hundreds of miles, and a small-town police officer or 
the mayor decides he does not want all those folks from Houston 
coming through his town, and tries to route them around or just 
to the traffic light. In theory, the State could over-ride that 
decision, but if it was across the border, in Louisiana or 
Arkansas, they could still be backing up people for hundreds of 
miles.
    I could have used a Federal support for a situation like 
that, and we did in fact have the Army in our emergency 
operations center.
    Senator Warner. Is that National Guard or regular force?
    Judge Eckels. Regular Army. And we brought in fuel trucks 
and support for our office operations from the regular Army 
refueling trucks that were available at one of the bases in our 
community.
    At the same time, we also had National Guard presence as 
well, but it was U.S. Army personnel that were in our building. 
We had a 2-star, I think, in the building initially and a 3-
star came in eventually.
    But ultimately I share your concerns about sovereignty and 
the ability of local officials to control the situation.
    Senator Warner. No, sovereignty of the States.
    Judge Eckels. Yes, sovereignty of the States, over how we 
operate. But at the same time, in an overwhelming natural 
disaster or terrorist attack, there may well be a place for 
Federal assistance. I would just encourage you, as you are 
doing so, to have controls in place so that you are not having 
people who think they know better what to do locally than the 
people locally might know to do in dealing with their 
particular situations.
    Senator Warner. The input from people who have had the 
experience, such as each of you, is very important as this 
decision is being made in our Committee. Should the 
Administration come forward with some revisions to--they are 
very old laws, one called Posse Comitatus, which is from the 
1870s, and the other is the Insurrection Act. At least we ought 
to rename that, that is at a minimum.
    Judge Eckels. I have had a few of those on the 
Commissioners Court. [Laughter.]
    Senator Warner. I just think that we have to be prudent in 
this country and recognize there could be situations.
    Now, those two framework of laws--Insurrection Act also is 
in the late 1800s--has served America well because the men and 
women in the armed forces essentially are not for law 
enforcement domestically, and historically there has been sound 
reasons why they should not be employed.
    Now, on occasions Presidents have exercised under the 
Insurrection Act the right for our troops to go in and 
participate in the law enforcement, but it should be very 
limited and only in extraordinary circumstances. I think what 
you are saying is that to the extent there is some residual of 
local, State authority, from the governor on down to the county 
commissioners and mayors, they should have a voice if they are 
able to function still under that situation.
    Judge Eckels. Yes, sir, a strong voice, that the main place 
we need the Army is not for law enforcements but logistical 
support. They have tremendous capacity----
    Senator Warner. No question about it.
    Judge Eckels Logistical support, supplies for troops. Those 
supplies can supply the local community.
    Senator Warner. And the lift capacity with its helicopters, 
or air or truck or so forth. Someone else have a view on our 
panel?
    Mr. Holden. We actually asked for military police to come 
in and be a part of our operation because we had police 
officers working double shifts, so primarily many of the 
personnel were deployed at one of the major evacuation centers, 
and that is the one that is our convention center, and that 
worked out fine.
    Senator Warner. Were they Federal regular troops or 
National Guard?
    Mr. Holden. They were Federal regular troops.
    Senator Warner. And they did supply then some trained 
individuals to work with the police?
    Mr. Holden. Yes, sir. Let me back up. We had National Guard 
from different States, so they were probably National Guard.
    Senator Warner. They, under law, have the right of law 
enforcement.
    Mr. Holden. Yes, sir.
    Senator Warner. That is one of the reasons it is so 
confusing. They are both wearing the same uniform, the 
fatigues, the standard Army, in most instances, fatigues, and 
the system does not know which to say, ``Come help me because I 
am suffering from criminality over here.''
    Mr. Holden. That is what I would suggest. There has to be 
some integration of the services, and look to see what laws 
need to be tweaked to allow them to have the same power, but 
again, with the caveat that the judge mentioned, there has to 
be coordination with the local people as well, including law 
enforcement, but if you started with our National Guard, since 
they are stationed in Louisiana or whatever State, they can 
best say that we need the following resources in Area X, Y, Z. 
Then allow them to position the people out of the regular Army 
to supplant the additional personnel that they would need in 
order to carry out a detail.
    Senator Warner. Madam Chairman, my time is over. Should the 
other witnesses be afforded an opportunity, that they----
    Chairman Collins. Certainly.
    Mr. Massengill. No real comment on that, other than the 
National Guard did work very well with our local folks, and at 
this point that was satisfactory. I really have no other point 
other than what has been made.
    Mr. Coody. I would think that if the National Guard could 
work well, if FEMA could work well, we might not have to go to 
the measure of changing the way we react with the military in 
the country.
    I think the first option and first priority should be 
making the system that we have in place work.
    Senator Warner. Good. I have looked into it and had the 
opportunity with my colleagues right here, a week or 10 days 
ago to go down, and I asked this question of a number of our 
military people, and they said the situation worked this time, 
but there could be another situation. I think all of us wish to 
commend the men and women of the U.S. Armed Forces whether they 
were regular or Guard or Coast Guard. There was a magnificent 
chapter in the history of our uniform people that we turned to 
to help out.
    I thank you very much, Madam Chairman.
    Chairman Collins. Thank you, Senator.
    Mayor Massengill, you have had a long time now to think 
about the question that I posed to you about your relationship 
with FEMA. Your response is from an interesting perspective 
because you are mayor of a community that was hit by the 
hurricane and also took in a large number of evacuees. So I am 
interested in your experience in dealing with FEMA from both 
perspectives.
    Mr. Massengill. I would like to give you that. First of 
all, let me tell you that I went to the shelters, as I 
mentioned earlier, I talked with the people, and I said, ``Tell 
me your thoughts about FEMA and the way you have been treated 
and the response you have had to your needs.''
    The people feel they had been forgotten or ignored, as they 
felt more attention was given to areas that had been struck 
harder. Yet they were in our community, and they had been 
struck as hard as anybody, yet they felt they were ignored. 
They felt the government, i.e., FEMA, has been slow to respond. 
They further felt that a FEMA representative, if they told them 
they would be back with them tomorrow with an answer, that they 
may hear back in a week if at all. So they felt--they were told 
they would be back with them, but did not get back with them.
    So I asked them on a scale of 1 to 10, with 10 being the 
highest score, where would you rate FEMA? And it came out 
slightly below 2 on the average, slightly below 2.
    However, now, as far as the city's relationship with FEMA--
let me say this: The evacuees are terribly disappointed in the 
response that they received.
    We had a public assistance meeting 10 days after the 
hurricane. We were told what to expect as far as public 
assistance was concerned. We talked with FEMA representatives 
several times about the cleanup, the debris cleanup. Finally 
the Corps came in. And then 3 weeks after--I think after it was 
known that I was going to be testifying last Friday and it got 
delayed--last Thursday I had a representative from the 
Intergovernmental Affairs Office of FEMA stop by to make a--as 
he put it, courtesy call. We are still waiting on an individual 
assistance office to be set up in our community. We did make 
available to the citizens of our community--we had the library 
available to them so that they could go online and sign up for 
an IA number.
    We also had a computer lab set up in a mobile home so that 
we had 11 computers available to them with help, so that people 
could go on and sign up for their individual assistance number, 
which we understand by hearsay, that they have to have before 
they can go in and talk with FEMA. I now understand that an 
individual office is to be set up because I know the gentleman 
that is renting them the building, but we do not know when it 
is going to be set up.
    So we have not been overly satisfied.
    Chairman Collins. Thank you.
    Judge Eckels, my final question--although I could go on 
forever actually asking all of you questions--but my final 
question is for you. When FEMA announced its ill conceived and 
short-lived debit card, I read press reports that it created a 
real problem in Houston in terms of crowd control. I am curious 
whether FEMA officials called you and told you of their plan to 
distribute the debit cards prior to doing so?
    Judge Eckels. No.
    Chairman Collins. No.
    Judge Eckels. Briefly, the local FEMA officials were very 
cooperative working with us. They did talk to us about the 
debit card program, and actually I think it was a very 
compassionate program and one that made sense. In retrospect it 
is one that was a classic Federal system where they came in and 
were going to do it their way with a bunch of Federal personnel 
to issue the cards. I think it probably should have been done 
through the banks, which would have created both the cash in 
the people's hands, but given them a bank account that they 
perhaps never would have had otherwise.
    That said, when it came up, our local FEMA officials were 
in a meeting with me talking logistics about how we were going 
to do this. They had the capacity to issue about 50 per hour. 
They received orders from Washington to begin issuing them, 
which was ill conceived. While we were meeting, there was a 
strike force that came in from Washington and began moving our 
housing officials out of some of the shelter areas that they 
were using to set up their debit card operation.
    We did get that solved. Our local FEMA representatives were 
unaware of what was happening. It was the same problem the 
mayor mentioned down here, with different FEMA teams not being 
aware of each other's activities.
    We were able to the next day set up that card operation, 
and we processed 500 per hour, that's families not individuals, 
and we were able to handle the entire population in the 
Astrodome complex in 1 day by about 3 o'clock in the afternoon.
    The problem we faced was that the national office, through 
their press releases, announced this program and caused an 
expectation within the community that was not there. I had to 
go out in the middle of a crowd of 2,000 angry folks and say, 
``I am in charge. It is not happening. Let me explain to you 
why. You are going to get your money, you will get your 
benefits.'' It was not that they were mad or afraid they were 
not getting their benefits, they just were mad because it was 
not happening as they were told because that was done out of a 
press release out of Washington, DC, not in coordination with 
the local officials.
    The next day, on instructions from Washington, we announced 
that it would be open to the public and they should come at 10 
o'clock in the morning. That night they changed their mind and 
canceled the program once again that was working smoothly in 
Houston.
    So through that process I had to once again go outside. We 
put every highway sign available in the city out on the street 
saying ``No FEMA cards.'' We put them up in the freeway system, 
our information signs through our TranStar system to let people 
know there were no debit cards, and we were able to get the 
message out and avoid that confusion. It was not so much that 
the cards were a problem. It was the unmet expectations, and if 
there is anything you get from all of us here today, 
communications is the key. Whether it is our evacuation plan of 
people having to sit for 20 hours, where it's clear we had a 
failure there, or the debit cards coming out of Washington. It 
is people's expectations being met and knowing when to expect 
help.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks again, Madam Chairman.
    I want to tell you all, your stories will stick with us 
because you have been out there on the front lines. Some of 
them are encouraging. Your work sounds like it was exemplary. 
But the stories of the way in which FEMA was not ready to give 
you help, was not ready--not for prime time, but for crisis 
time really will stick with us. We have got to convey them back 
to Mr. Paulson, Acting Director, next week, so that we can 
improve their performance.
    One of the shining stars here was the Coast Guard, and the 
Coast Guard actually does not--as you know they prepare for 
rescue over water. They were suddenly drawn in in Katrina to do 
a lot of the stuff they normally do in New Orleans 
particularly, but throughout the Gulf Coast. And they were 
ready. It just appears in so many ways that one would hope an 
emergency management agency would anticipate that FEMA was not 
ready.
    So we have a lot of work to do with them. Again, this is 
not pointing fingers of blame. It is just getting our act 
together so we can be there for you as local officials.
    Judge Eckels, you had a better experience, which is 
encouraging, but----
    Judge Eckels. I would mention the image of the Coast Guard. 
Lieutenant General Leonard was appointed by the mayor and me--
he is a Coast Guard Lieutenant out of Galveston--but from 
Houston to head our joint unified command structure. We started 
it from Harris County's Emergency Management Office. As it grew 
and we needed our folks doing other things, the Coast Guard 
lieutenant came in and did an excellent job. I would hope he 
would get some kind of recognition at some point.
    Senator Lieberman. Well, they just got it.
    Judge, I am interested in terms of lessons learned. Did the 
plan for evacuation, plans for emergency response include the 
prospect of what you had to implement in response to Rita, 
which was a mass evacuation?
    Judge Eckels. It included a mass evacuation of the coastal 
surge zones of that 1.2 million people. What we had not 
anticipated was the number of folks who would flee outside of 
those zones. It is understanding that they would in the sight 
on television of what we have described as the giant Pac Man 
coming up, these big red blobs getting ready to overwhelm the 
city. People were scared and they left. I do not blame them. If 
they had stayed, they would have faced the same things that you 
are and seeing in these other areas, where there was no power, 
no water, uncomfortable conditions.
    But we anticipated about 1.2 million coming out of the 
coastal zones.
    Senator Lieberman. And ended up with----
    Judge Eckels. We wound up with probably over 2.5 million, 
and that overwhelmed our plans. We will be better prepared next 
time. We have learned from that.
    Senator Lieberman. What will you do differently? In other 
words--because this is a problem that most any American city 
would face. We know that road systems--I can tell you in 
Connecticut, we do not have large cities. We have cities. The 
roads are congested at the commuter hours every day. If you 
suddenly said, ``Evacuate Hartford,'' it would be----
    Judge Eckels. Well, in Connecticut you do have a strong 
rail system to move people out of those cities----
    Senator Lieberman. We do, right.
    Judge Eckels. And you do not have as far to go to reach a 
major population center.
    Senator Lieberman. Right.
    Judge Eckels. With that kind of a number you have to go to 
Dallas, Austin, San Antonio, maybe even up to Oklahoma or 
Little Rock to get out of harm's way--you would want to go far 
enough to find hotels and other services for folks.
    So first thing we would do is probably use contra-flow 
lanes earlier to keep from blocking the limited access 
highways. It is not available on all roadways, but Interstate 
45 and Interstate 10 would be opened as contra-flow lanes much 
earlier. We will use a much stronger effort on our 
communication and education campaign on the staging of the 
evacuation. By the time the mandatory order was called, when we 
would have otherwise closed those routes down for the people in 
the surge areas, they were locked down with traffic from 
everyone else trying to leave.
    We are going through that now, but the mayor, the governor, 
and I are appointing a blue ribbon commission to work with our 
transportation planners on an evacuation plan. They will be 
folks who are not the elected officials in charge but community 
folks who have some business sense and a background in these 
areas, to review our entire planning operation. Governor Perry 
did a great job of building a better plan than was on the 
ground before. This year was the first time anybody had looked 
at an evacuation plan. He had a great plan, but we have learned 
a lot from Rita, both in terms of logistical support along the 
route, and choke points along the route, such as bottlenecks at 
small towns from evacuation route mergers.
    Another problem we had in this case was that not only was 
Houston evacuated, but the entire upper Texas coast from Corpus 
Christi, and some of those plans conflicted with each other and 
created more problems.
    Senator Lieberman. Let me give you a chance to respond to 
some stories in the media nationally that I have seen, that in 
the evacuation of Houston, there were not announcements made of 
shelters of last resort. Are you familiar with those? Just give 
us a quick response. Obviously, the concern is that you were 
worried about the chaos that occurred at some of the unprepared 
centers in New Orleans.
    Judge Eckels. Well, the Astrodome was the staging area for 
the recovery efforts in New Orleans and East Texas, so it was 
filled at this time before the storm with ambulances and fire 
trucks, and the Coast Guard was in there with the boats in the 
Reliant Center. All of our staging for the relief was done from 
the Astrodome.
    The people in the low-lying coastal areas that the local 
governments brought their facilities--their cars and their 
police cars and their school buses--to the Astrodome to get 
them out of the flood zones. So it was filled.
    The City of Houston is typically not a shelter city. We try 
to move people through the city and on out. The city, through 
the mayor's office, set up through the various high schools 
some shelter areas. The key for that was it was for special 
needs folks. It was for people who were in buildings, mobile 
homes, and other buildings that might not have held up to the 
storm and who had not left earlier. They were not designed to 
be a shelter for the other 2 million folks who lived in the 
Greater Houston area.
    What was needed was an education campaign. I went door to 
door in some of the neighborhoods talking, like you, to get the 
sense of what people were thinking. They were afraid that they 
were going to be overwhelmed by a tidal wave in areas well 
outside the coastal surge zone, from the Gulf of Mexico. They 
did not need a shelter. Yet they were seeking a shelter.
    After the storm, had there been a need such as in New 
Orleans, a post-event shelter need, there were many locations 
that we could have done, including the Reliant Convention 
Center and the George R. Brown, which ultimately served as a 
shelter. Those were not widely circulated publicly because we 
did not want--I think in the mayor's mind he did not want 
thousands of people showing up at a shelter who really did not 
need the shelter just because they were afraid of the storm.
    Senator Lieberman. I have a few seconds left and a big 
question. Since you are all here, maybe give me a quick 
response. I think one of the things a lot of us here are 
struggling with, as we watch their recovery, is what is the 
best way to try to rehouse the evacuees? Of course, as I said 
in my opening statement, a lot of skepticism about FEMA 
spending all the money on trailers or RVs. I read a story in 
the paper again today about the cruise ships bobbing----
    Judge Eckels. I have that sign in my office as a reminder 
of the following----
    Senator Lieberman. Which one?
    Judge Eckels. Senator, the housing in Houston, we are going 
to be different than the other areas. We have apartments. We 
have capacity.
    Senator Lieberman. In other words there are available 
apartments?
    Judge Eckels. We have a large housing stock. We have run 
short of the housing stock that falls in the HUD Section 8 
housing with FEMA reimbursement, at $600 a month, which is 
reasonable for a basic apartment in Houston for some of these 
folks in the shelter.
    Our experience in Tropical Storm Allison--which is the 
closest thing that we had--with 70,000 homes flooded, people 
wanted to be in a trailer, a mobile home by their house so they 
could work on repairing their house. That was not offensive to 
them. It is not comfortable if FEMA's role is to provide 
shelter, a place to live, just a roof over your head and a 
place that is safe from the elements, it works fine for a 
limited period. Some of them were there up to a year living in 
mobile homes in their driveways while their own home was being 
rebuilt.
    Senator Lieberman. Did you say that, mayor, earlier in your 
opening statement?
    Mr. Massengill. Right. That is what the people that I 
talked to in our shelters want. If they could go back to 
Slidell, for instance--and I just use that as an example; there 
are other areas as well--most of the evacuees could go back 
home. They could work on their homes. They could try to get 
their lives back together. They realize, matter of fact, 
several of them have said, ``We would even pay rent for those. 
We just do not have access to those.'' They just want to be 
able to get back home.
    Senator Lieberman. That is an important distinction because 
I think the vision on the other side is the worry about a 
trailer park set up of evacuees away from where they normally 
lived, away from job opportunities. We know some of those set 
up after earlier hurricanes in Florida still exist, so that is 
not what we want.
    Judge Eckels. Except that would be closer. If many of those 
people want to be closer than Houston, and we have, again, tens 
of thousands living in apartments in Houston today. It is a 
great place. They have schools. They may decide to stay there. 
But for those who want to go home, they are still a long way 
from home.
    Senator Lieberman. I hear you. When conditions are such 
back home that they cannot move a trailer onto the lot where 
they used to have a house.
    Judge Eckels. The question is whether they stay in Houston 
or they stay in a large FEMA-ville somewhere out there closer 
to their home. But then they have to ensure jobs and schools 
and everything else that you have to set up, so it is probably 
easier to absorb them in our system.
    Senator Lieberman. Thank you very much. You have been 
extremely helpful witnesses.
    Chairman Collins. Thank you all for your testimony. It has 
been excellent and once again confirmed my belief that local 
government is often far better in touch with the needs of the 
individuals than those that are in Washington.
    I think one of the most interesting impressions that I take 
from this hearing is the importance of communication, not only 
among the various levels of government, but within FEMA itself. 
It is extraordinary that there were decisions made in 
Washington that were not communicated to FEMA officials who 
were on the ground, to local and regional FEMA officials, and 
that is a very important insight that you have given us today.
    I also want to conclude this hearing by again asking you to 
thank the citizens of your communities for taking in people who 
have been displaced, whose lives have been devastated by the 
hurricane. I think it is an extraordinary example of 
generosity, resilience, and caring that defines the American 
people. So thank you for the good work that you are doing and 
for sharing your experiences and insight with the Committee 
today.
    The hearing record will remain open for 15 additional days 
for the submission of any additional questions for the record.
    And I want to thank our staff also for working very hard to 
put this excellent hearing together.
    Thank you. This hearing is now adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4236.001

[GRAPHIC] [TIFF OMITTED] T4236.002

[GRAPHIC] [TIFF OMITTED] T4236.003

[GRAPHIC] [TIFF OMITTED] T4236.004

[GRAPHIC] [TIFF OMITTED] T4236.005

[GRAPHIC] [TIFF OMITTED] T4236.006

[GRAPHIC] [TIFF OMITTED] T4236.007

[GRAPHIC] [TIFF OMITTED] T4236.008

[GRAPHIC] [TIFF OMITTED] T4236.009

[GRAPHIC] [TIFF OMITTED] T4236.010

[GRAPHIC] [TIFF OMITTED] T4236.011

[GRAPHIC] [TIFF OMITTED] T4236.012

[GRAPHIC] [TIFF OMITTED] T4236.013

[GRAPHIC] [TIFF OMITTED] T4236.014

[GRAPHIC] [TIFF OMITTED] T4236.015

[GRAPHIC] [TIFF OMITTED] T4236.016

[GRAPHIC] [TIFF OMITTED] T4236.017

[GRAPHIC] [TIFF OMITTED] T4236.018

[GRAPHIC] [TIFF OMITTED] T4236.019

[GRAPHIC] [TIFF OMITTED] T4236.020

[GRAPHIC] [TIFF OMITTED] T4236.021

[GRAPHIC] [TIFF OMITTED] T4236.022

[GRAPHIC] [TIFF OMITTED] T4236.023

[GRAPHIC] [TIFF OMITTED] T4236.024

[GRAPHIC] [TIFF OMITTED] T4236.025

[GRAPHIC] [TIFF OMITTED] T4236.026

[GRAPHIC] [TIFF OMITTED] T4236.027

[GRAPHIC] [TIFF OMITTED] T4236.028

[GRAPHIC] [TIFF OMITTED] T4236.029

[GRAPHIC] [TIFF OMITTED] T4236.030

[GRAPHIC] [TIFF OMITTED] T4236.031

[GRAPHIC] [TIFF OMITTED] T4236.032

[GRAPHIC] [TIFF OMITTED] T4236.033

[GRAPHIC] [TIFF OMITTED] T4236.034

[GRAPHIC] [TIFF OMITTED] T4236.035

[GRAPHIC] [TIFF OMITTED] T4236.036

[GRAPHIC] [TIFF OMITTED] T4236.037

[GRAPHIC] [TIFF OMITTED] T4236.038

[GRAPHIC] [TIFF OMITTED] T4236.039

[GRAPHIC] [TIFF OMITTED] T4236.040

[GRAPHIC] [TIFF OMITTED] T4236.041

[GRAPHIC] [TIFF OMITTED] T4236.042

[GRAPHIC] [TIFF OMITTED] T4236.043

[GRAPHIC] [TIFF OMITTED] T4236.044

[GRAPHIC] [TIFF OMITTED] T4236.045

[GRAPHIC] [TIFF OMITTED] T4236.046

[GRAPHIC] [TIFF OMITTED] T4236.047

[GRAPHIC] [TIFF OMITTED] T4236.048

[GRAPHIC] [TIFF OMITTED] T4236.049

[GRAPHIC] [TIFF OMITTED] T4236.050

[GRAPHIC] [TIFF OMITTED] T4236.051

[GRAPHIC] [TIFF OMITTED] T4236.052

[GRAPHIC] [TIFF OMITTED] T4236.053

[GRAPHIC] [TIFF OMITTED] T4236.054

[GRAPHIC] [TIFF OMITTED] T4236.055

[GRAPHIC] [TIFF OMITTED] T4236.056

[GRAPHIC] [TIFF OMITTED] T4236.057

[GRAPHIC] [TIFF OMITTED] T4236.058

[GRAPHIC] [TIFF OMITTED] T4236.059

[GRAPHIC] [TIFF OMITTED] T4236.060

[GRAPHIC] [TIFF OMITTED] T4236.061

[GRAPHIC] [TIFF OMITTED] T4236.062

[GRAPHIC] [TIFF OMITTED] T4236.063

[GRAPHIC] [TIFF OMITTED] T4236.064

[GRAPHIC] [TIFF OMITTED] T4236.065

[GRAPHIC] [TIFF OMITTED] T4236.066

[GRAPHIC] [TIFF OMITTED] T4236.067

                                 <all>

</pre></body></html>
